<html>
<title> - SUPPORTING ECONOMIC GROWTH AND JOB CREATION THROUGH CUSTOMS TRADE MODERNIZATION, FACILITATION, AND ENFORCEMENT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                   SUPPORTING ECONOMIC GROWTH AND JOB
             CREATION THROUGH CUSTOMS TRADE MODERNIZATION,
                     FACILITATION, AND ENFORCEMENT

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON TRADE

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2012

                               __________

                          Serial No. 112-TR05

                               __________

         Printed for the use of the Committee on Ways and Means





                  U.S. GOVERNMENT PRINTING OFFICE
80-260                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b4d3c4dbf4d7c1c7c0dcd1d8c49ad7dbd99a">[email&#160;protected]</a>  

                      COMMITTEE ON WAYS AND MEANS

                     DAVE CAMP, Michigan, Chairman

WALLY HERGER, California             CHARLES B. RANGEL, New York
SAM JOHNSON, Texas                   FORTNEY PETE STARK, California
KEVIN BRADY, Texas                   JIM McDERMOTT, Washington
PAUL RYAN, Wisconsin                 JOHN LEWIS, Georgia
DEVIN NUNES, California              RICHARD E. NEAL, Massachusetts
PATRICK J. TIBERI, Ohio              XAVIER BECERRA, California
GEOFF DAVIS, Kentucky                LLOYD DOGGETT, Texas
DAVID G. REICHERT, Washington        MIKE THOMPSON, California
CHARLES W. BOUSTANY, Jr., Louisiana  JOHN B. LARSON, Connecticut
PETER J. ROSKAM, Illinois            EARL BLUMENAUER, Oregon
JIM GERLACH, Pennsylvania            RON KIND, Wisconsin
TOM PRICE, Georgia                   BILL PASCRELL, Jr., New Jersey
VERN BUCHANAN, Florida               SHELLEY BERKLEY, Nevada
ADRIAN SMITH, Nebraska               JOSEPH CROWLEY, New York
AARON SCHOCK, Illinois
LYNN JENKINS, Kansas
ERIK PAULSEN, Minnesota
KENNY MARCHANT, Texas
RICK BERG, North Dakota
DIANE BLACK, Tennessee
TOM REED, New York
SANDER M. LEVIN, Michigan

        Jennifer M. Safavian, Staff Director and General Counsel

                  Janice Mays, Minority Chief Counsel

                                 ______

                         SUBCOMMITTEE ON TRADE

                      KEVIN BRADY, Texas, Chairman

GEOFF DAVIS, Kentucky                JIM McDERMOTT, Washington
DAVID G. REICHERT, Washington        RICHARD E. NEAL, Massachusetts
WALLY HERGER, California             LLOYD DOGGETT, Texas
DEVIN NUNES, California              JOSEPH CROWLEY, New York
VERN BUCHANAN, Florida               JOHN B. LARSON, Connecticut
ADRIAN SMITH, Nebraska
AARON SCHOCK, Illinois
LYNN JENKINS, Kansas


                            C O N T E N T S

                               __________
                                                                   Page

Advisory of May 17, 2012 announcing the hearing..................     2

                               WITNESSES

PANEL 1:
  Mr. David Aguilar, Acting Commissioner, U.S. Customs and Border 
    Protection, U.S. Department of Homeland Security.............    10
  Mr. Kumar Kibble, Deputy Director, U.S. Immigration and Customs 
    Enforcement, U.S. Department of Homeland Security............    35
  Mr. Timothy Skud, Deputy Assistant Secretary for Tax, Trade and 
    Tariff Policy, U.S. Department of the Treasury...............    53
PANEL 2:
  Honorable George Weise, Executive Vice President, Sandler & 
    Travis Trade Advisory Services, (former Commissioner of 
    Customs). Testifying on his own behalf.......................    80
  Mr. Darrell Sekin, Jr., President and CEO, DJS International 
    Services, and President, National Customs Brokers and 
    Forwarders Association of America, Inc.......................    87
  Mr. Michael Mullen, Executive Director, Express Association of 
    America......................................................    96
  Mr. John Williams, Executive Director, Southern Shrimp Alliance   106
  Mr. Karl Glassman, COO, Leggett & Platt, Inc...................   118

                       SUBMISSIONS FOR THE RECORD

The Honorable Charles Boustany Letter 1..........................    73
The Honorable Charles Boustany Letter 2..........................    74
Senators Ron Wyden, Olympia Snowe, Claire McCaskill, and Roy 
  Blunt..........................................................   130
AAFA.............................................................   133
AAEI.............................................................   143
RILA.............................................................   147
NTEU.............................................................   151


   SUPPORTING ECONOMIC GROWTH AND JOB CREATION THROUGH CUSTOMS TRADE 
              MODERNIZATION, FACILITATION, AND ENFORCEMENT

                              ----------                              


                         THURSDAY, MAY 17, 2012

             U.S. House of Representatives,
                       Committee on Ways and Means,
                                     Subcommittee on Trade,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 1100, Longworth House Office Building, the Honorable Kevin 
Brady [chairman of the subcommittee] presiding.
    [The advisory of the hearing follows:]

Hearing Advisory

FROM THE COMMITTEE ON WAYS AND MEANS

                  Chairman Brady Announces Hearing on

                   Supporting Economic Growth and Job

                     Creation through Customs Trade

                    Modernization, Facilitation, and

                              Enforcement

Thursday, May 17, 2012

    Ways and Means Trade Subcommittee Chairman Kevin Brady (R-TX) today 
announced a Subcommittee hearing to review customs operations 
administered by U.S. Customs and Border Protection (CBP) and U.S. 
Immigration and Customs Enforcement (ICE). The hearing will focus on 
efforts to enhance economic growth and job creation by facilitating 
legitimate trade, modernizing customs procedures, and enforcing U.S. 
Customs and trade laws. The hearing will help the Committee develop 
customs reauthorization legislation. The hearing will take place on 
Thursday, May 17, 2012, in the main Committee hearing room, 1100 
Longworth House Office Building, beginning at 10:00 a.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be heard from invited witnesses only. 
However, any individual or organization not scheduled for an oral 
appearance may submit a written statement for consideration by the 
subcommittee and for inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    The Committee last conducted a comprehensive review of the 
structure and resources of CBP and ICE from a commercial operations and 
customs enforcement perspective in May 2010. Since that time, there has 
been growing concern that, in particular, existing efforts to modernize 
trade functions, facilitate legitimate trade, and enforce customs laws 
may not be keeping pace with the growing volumes of trade.
    CBP has been implementing several programs to automate trade, 
improve compliance, and identify shipments that violate U.S. laws. In 
addition, in working with CBP, the trade community has made large 
investments in international supply chains through advance submissions 
of cargo data and ``partnership'' programs between government and 
business. This hearing will explore how these enhanced targeting and 
screening tools can be improved to reduce costs, smooth movements of 
legitimate trade by trusted partners, and increase compliance with the 
customs and trade laws of the United States.
    With respect to enforcement of traditional customs laws and revenue 
collection, more enforcement-related training and other measures may be 
needed to ensure CBP can effectively address fraudulent practices that 
circumvent U.S. laws, including in the areas of antidumping and 
countervailing duty collection, intellectual property rights 
enforcement, and textile enforcement. This hearing will explore how CBP 
manages its resources and whether any structural or other changes are 
needed to ensure that U.S. customs and trade laws are enforced.
    In announcing this hearing, Chairman Brady said, ``Trade is vital 
to our economic engine, creating jobs and lifting wages here at home. 
Today, more than 50 million U.S. workers are employed by companies that 
engage in international trade, and U.S. trade represents over 30 
percent of U.S. GDP. Streamlining legitimate trade is an essential 
component to our competitiveness in the global marketplace. This 
hearing will explore how to allocate resources and develop models so 
that we can move the ever-increasing volume of legitimate trade more 
efficiently, while effectively filtering out trade that doesn't comply 
with our laws.''
      

FOCUS OF THE HEARING:

      
    To meet the challenge of effectively and efficiently processing the 
volume and increasing complexity of trade in the future, CBP's 
structure, policies, operations, and modernization must support its 
trade facilitation and commercial enforcement functions. This hearing 
will examine the following topics:

       <bullet>  Modernizing: Modernizing CBP's Automated Commercial 
Environment (ACE) is critical to supporting the increase in import 
volume and the successful pre-screening of cargo. Complementing ACE is 
the International Trade Data System (ITDS), the window through which 48 
government agencies with border responsibilities must function 
electronically and seamlessly. Together, these systems will allow CBP 
and other agencies to process goods more quickly and cost effectively, 
as well as collect and use trade data. The hearing will focus on what 
is needed to process all agency requirements at the border in the face 
of the ever-increasing volume of imports.
      
       <bullet>  Streamlining: CBP must find new models to manage the 
importing process by streamlining the flow of legitimate trade and 
providing benefits through a risk-based approach. CBP's advance cargo 
data initiatives and industry partnership programs must work together 
to process legitimate trade. The Subcommittee will explore, among other 
things, how CBP can use an account management summary processing 
approach as opposed to a shipment-by-shipment approach to facilitate 
trade by known and established industry partners, increasing compliance 
by allowing more focus on shipments posing greater risk.
      
       <bullet>  Enforcing: Revenue collection and trade enforcement 
activities are critically important missions for CBP and ICE. While the 
overwhelming majority of trade is compliant with U.S. law, the agencies 
face increasing challenges in revenue collection and customs 
enforcement as the sophistication of those who seek to evade our laws 
increases. The hearing will examine whether these agencies are meeting 
this challenge.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Click here to provide a submission 
for the record.'' Once you have followed the online instructions, 
submit all requested information. ATTACH your submission as a Word 
document, in compliance with the formatting requirements listed below, 
by the close of business, Thursday, May 31, 2012. Finally, please note 
that due to the change in House mail policy, the U.S. Capitol Police 
will refuse sealed-package deliveries to all House Office Buildings. 
For questions, or if you encounter technical problems, please call 
(202) 225-1721 or (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons and/
or organizations on whose behalf the witness appears. A supplemental 
sheet must accompany each submission listing the name, company, 
address, telephone and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://www.waysandmeans.house.gov/.

                                 <F-dash>

    Chairman BRADY. Good morning, everyone. Our hearing today 
will focus on three critical aspects of the Customs mission: 
Modernization, streamlining or facilitation, and enforcement as 
well as the accurate, timely measurement of improvement in all 
three. I want to welcome everyone and extend a special welcome 
to our guests.
    Just 100 years ago, the main function of Customs was 
revenue collection revenue. For over 125 years, Customs duties 
were our main source of funds. At that time, America's imports 
were a mere $153 billion a year, and duties collected totaled 
about $310 million. Today the value of imported goods is 
approximately $2.3 trillion a year, and duties, taxes, and fees 
collected on these goods bring in almost $37 billion. The value 
of imports in 2011 has grown to over four times what it was 
just 20 years ago.
    Trade is vital to our economic engine, creating jobs and 
lifting wages here at home. Today more than 50 million U.S. 
workers are employed by companies that engage in international 
trade, and U.S. trade represents over 30 percent of America's 
economy.
    In the 21st century, lowering tariff barriers and 
increasing quotas is not enough. Time is a trade barrier, and 
streamlining legal trade is an essential component to our 
competitiveness in the global marketplace. This hearing will 
explore how to allocate resources, develop the models, and 
measure progress so that we can move the ever-increasing volume 
of legitimate trade more efficiently and halt trade that 
doesn't comply with our laws.
    Customs is the air filter to our economic engine, allowing 
good, clean imports to flow through, while the harmful elements 
are screened out before they cause damage. To develop better 
tools and measurements, I intend to move forward on a 
bipartisan basis to pass Customs reauthorization legislation 
this year. The last time this committee last passed a Customs 
bill was in 2004, and it is long overdue.
    CBP and ICE play pivotal roles to ensure that our trade 
agreements, our preference programs, and U.S. trade laws are 
enforced. The Treasury Department also plays an important role 
in furthering CBP's trade mission, and we depend on it to 
oversee CBP's important Customs revenue functions.
    I strongly believe that for the United States to remain 
competitive, we must have the most modern and automated Customs 
structure we can realistically develop, the first component of 
a sound Customs policy. I support the modernization of CBP's 
Automated Commercial Environment, which is vital supporting 
increased imports and pre-screening of cargo. I hope the CBP 
has turned over a new leaf in making ACE a reality and will 
quickly operationalize the cargo release module that we have 
been awaiting for some time. I understand that ACE will soon be 
expanded to accommodate export processing, which today is 
partially an archaic paper process.
    Complementing ACE is the International Trade Data System. 
In working with Treasury, CBP has been leading 48 agencies in 
developing ITDS so that our companies deal with an electronic 
and seamless one-stop government, one window at the border 
instead of a morass of multiple clearance processes. These 
programs will allow CBP and other agencies to more quickly and 
cost-effectively process imported goods and to more efficiently 
collect and use trade data.
    Second, in addition to automation, the sophisticated nature 
of trade demands better streamlining of Customs processes, 
particularly for low-risk importers. CBP's advanced cargo data 
initiatives and industry partnership programs must work 
together to better facilitate legitimate trade. Companies that 
partner with CBP to improve trade compliance should realize the 
benefits of a more efficient system that create incentives for 
cooperation above the norm.
    CBP has the potential to develop new models to facilitate 
legitimate trade in a risk-based manner, such as through 
pooling expertise in Centers of Excellence and Expertise as 
well as the Importer's Self-Assessment program instead of 
shipment-by-shipment approaches. These models would enable CBP 
to focus on high-risk imports and expedite low-risk shipments 
while leveraging limited government resources. I would like to 
maximize the role of the Office of Trade in carrying out these 
functions.
    The third component of sound Customs policy is collecting 
revenue, enforcing our laws without jeopardizing legitimate 
trade. While the great majority of incoming trade is materially 
compliant, CBP and ICE face increasing challenges as the 
sophistication of those who wish to evade our law increases. 
CBP and ICE have designated eight critical sectors as Priority 
Trade Issues to focus their enforcement resources, such as 
intellectual property rights enforcement, textiles, and 
antidumping countervailing duties.
    I also want to congratulate fellow Ways and Means Committee 
member Dr. Charles Boustany on his bipartisan legislation to 
address evasion and underpayment of antidumping and 
countervailing duties, and I look forward to considering it.
    We also can't forget that our trade agreements beneficially 
create new obligations on our trading partners that increase 
compliance. The TPP negotiations are taking this several steps 
further.
    In conclusion, I want to emphasize that CBP and ICE 
consultations with this committee, with other agencies, and the 
private sector on its rulemakings and other major actions must 
be systematic and meaningful. This hasn't always been the case. 
There have been some bumps in the road in the past, and I think 
that consultation helps achieve a better product.
    Today we will have a comprehensive discussion on efforts to 
enhance economic growth and job creation by facilitating 
legitimate trade modernizing Customs procedures, enforcing U.S. 
Customs and trade laws in preparation for moving Customs 
reauthorization legislation.
    Chairman BRADY. I will now gladly yield to our Ranking 
Member of the Trade Subcommittee, Mr. McDermott.
    Mr. McDERMOTT. Thank you, Mr. Brady. I want to thank the 
chairman for holding this meeting and thank our witnesses for 
coming today. I want to start by recognizing the tremendous 
challenge that the CBP faces and the acting commissioner, Mr. 
Aguilar. Previous commissioner appointee was not confirmed, and 
therefore, Mr. Aguilar is sitting in for him in one of those 
situations where you have the job but you don't have the power, 
and we appreciate what you are going through at this point.
    Your agency is tasked with protecting our borders from a 
range of security threats, a task that rightly became a central 
priority after 9/11. The agency also has to facilitate 
legitimate trade in goods across our borders, a task that is 
all the more complex given the exponential rise in trade.
    Since Customs was subsumed in the Department of Homeland 
Security in 2002, our committee has expressed significant 
concern that CBP has not met this dual mandate and pushed CBP 
to sharpen its trade focus, both through statutory mandates and 
through oversight. Former Commissioner Bersin and now 
Commissioner Aguilar and key members of the CBP team have 
worked to respond to our concerns, and clearly you have made 
real progress, and we commend you for that.
    But even with this progress, CBP is facing challenges with 
the trade side of the mandate. We are working our way towards 
Customs reauthorization bills, so we are here today to 
understand the nature and the origin of the problems and to 
look for solutions.
    There are three areas that I hope we can focus on. One is 
bringing the U.S. Government's system for processing imports 
into the 21st century. It is, after all, the 21st century. 
Ensuring the CBP, number two, is getting off the sidelines and 
fulfilling its obligations to stop foreign companies from 
evading our trade revenue laws; and, three, ensuring that CBP 
can partner with innovative companies to stop imports which 
undermine U.S. intellectual property.
    On the development of CBP's computer systems, the need is 
clear. We ought to get off paper and onto a computer. Our 
current system of processing imports is, simply put, 
inefficient. Importers submit duplicative data and paper 
documents to CBP and other regulatory agencies just to have 
their goods cleared at the port.
    Now, I come from a high tech district, and just on the face 
of it, this redundant paper-based system not only costs 
importers more time and money as they wait for goods to clear, 
but it also costs CBP and other agencies wasted time and money.
    CBP's mismanagement of ACE development hurt business. Our 
economy and Congress lost some faith in CBP to get the job 
done. Now I understand that in the past 2 years, CBP has taken 
good steps to get ACE back on track. Today I hope to get a 
better sense of how real that progress is and whether it is 
sufficient--significant enough that the committee should 
support continued development of the ACE ITDS system. It is--I 
think an electronic one-stop system for importers would be a 
great trade facilitation benefit for businesses and over time 
could be a platform where CBP can finally automate a range of 
other programs such as drawback and inbound cargo.
    On evasion of trade remedies laws, CBP's failure to act, 
even when affected U.S. industries provide CBP with very 
specific information about evasion is simply unacceptable. The 
purpose of AD/CVD duties is to level an un-level playing field 
which is harming our companies. If CBP does not take adequate 
steps to collect these duties, CBP is allowing that harm to 
continue.
    Finally, on protection of U.S. intellectual property, the 
administration, ICE, and CBP deserve credit for the work being 
done at the National IPR Center to target and stop infringing 
imports. There are two areas where CBP should partner with 
innovative companies to bolster this work. The first is 
effective implementation of a provision enacted as part of the 
National Defense Authorization Act to allow CBP to share 
details on products suspected of being fakes with the right 
holders. The second is giving CBP the authority to share 
illegal devices used to infringe on copyright works such as 
video games with right holders. I hope to work with the 
administration and the committee to address both of these 
issues, and we welcome your testimony. Thank you.
    Chairman BRADY. Thank you, Mr. McDermott. Now for our first 
panel of government witnesses, the Acting Commissioner of 
Customs and Border Protection, David Aguilar. Kumar Kibble, 
Deputy Director of Immigration and Customs Enforcement. 
Welcome. Timothy Skud, Deputy Assistant Secretary for Tax, 
Trade and Tariff Policy with the U.S. Department of Treasury. 
Gentlemen, thanks for coming today. We have reserved for each 
of you 5 minutes. Commissioner Aguilar.

STATEMENT OF DAVID AGUILAR, ACTING COMMISSIONER, UNITED STATES 
  CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. AGUILAR. Good morning, Chairman Brady, Ranking Member 
McDermott, and distinguished Members of the Subcommittee. I 
want to begin this morning by thanking the Members of the 
Subcommittee and the Congress for your unwavering support to 
U.S. Customs and Border Protection and its men and women. Your 
support continues to enable us to work with our private sector 
partners to transform, do exactly as the chairman and the 
ranking member stated, to transform our entry and clearance 
processes, the way that we do business, and to meet our mutual 
and continuously evolving needs. It is indeed an honor this 
morning to appear before you today representing the thousands 
of men and women of the United States Customs and Border 
Protection.
    I would like to begin to discuss the actions we are taking 
at CBP to develop a fully modern agency focused not only on 
protecting, which is critically important, but just as 
critically important also on promoting our national security 
and economic well-being well into the 21st century. This is an 
exciting time of innovation and implementation, and I want to 
underline implementation, at CBP, and I, along with the men and 
women of CBP, are committed to continuing our partnerships with 
the trade industry and furthering our co-creation efforts to 
enhance the many important initiatives that we have undertaken.
    Last week CBP held its 2012 trade symposium, its first ever 
on the west coast, where we focused on many of the initiatives 
transforming the way that CBP approaches the trade operations 
with the trade community and especially with other government 
agencies. We are charged with some of the most critical parts 
of America's economic and physical security.
    In fiscal year 2011, CBP processed nearly $2.3 trillion in 
trade. We operate at 329 ports of entry and process over 100 
million cars, buses, trucks, trains, vessels, and aircraft 
arriving at our ports of entry every year. We move more than 28 
million commercial shipments arriving via air, sea, and land, 
250 million more arriving in small parcels via express carriers 
and mail.
    With such a large and growing volume of goods and people 
crossing our borders, CBP must perform its responsibilities 
efficiently to avoid delaying shipments or increasing costs and 
causing inefficiencies for U.S. businesses. It is essential 
that we stay agile in modernizing our processes and 
methodologies, especially as we face a world of increased trade 
volumes and the rapidly escalating complexity of modern trade.
    Going forward, my focus on trade policy centers on several 
strategies and six key themes aimed at transforming as to how 
CBP carries out its trade and security missions. Specifically, 
those themes are consistency and harmonization; modernization 
of our processes and IT technology capabilities; building up 
the trust-based programs that have been so successful; co-
creation with the trade industry on how we move forward; 
bidirectional education where we learn from the trade and the 
trade learns from us as to how we operate so that we can align, 
synergize, and dovetail at every opportunity; and lastly, trade 
enforcement and revenue collection, bringing substantive 
meaning to the enforcement and the revenue collection of our 
responsibilities.
    Building a consistent approach across commercial ports and 
between Federal agencies will allow us to increase data 
sharing, reduce duplicative data filing, and reduce regulatory 
barriers to efficient cargo release. We have focused our 
efforts on the creation and implementation of things such as 
the Centers for Excellence and Expertise.
    In October of 2011 CBP established two of these centers: 
One for pharmaceuticals, one for electronics. I recently 
announced just last week the expansion of two additional 
Centers for Excellence and Expertise, one in the petroleum, 
natural gas, and minerals arena, and the other in the 
automotive and aerospace arena. All four of these centers bring 
to bear all of our trade expertise on a single industry, on a 
single sector of industry in one strategic location. The 
centers are virtual, a mix of virtual and physical collocation 
that are staffed with trade disciplines and positions using our 
account management principles to authoritatively facilitate 
trade issues. Ultimately, they provide one-stop processing to 
lower the trades cost of business and enhance CBP's enforcement 
efforts.
    Our most visible modernization effort is transition from 
ACS to ACE to automate and streamline the clearance and 
collection process. In March, we announced the completed 
development and successful deployment of ACE rail and sea 
manifest, capabilities to all direct arrival rail and seaports 
through ACE.
    We are also seeing significant progress on our simplified 
entry cargo release program, which is another successful result 
of our co-creation efforts. Approach to modernizing our trade 
operations is critical in co-creation. Simplified entry 
provides importers with a chance to file earlier in the process 
with a streamlined filing which can be amended. This is a 
first-time ever capability that has been provided to the trade 
industry.
    Additionally, we continue to work towards establishing a 
comprehensive trusted trader program, specifically to 
strengthen co-creative program such as the Air Cargo Advance 
Screening, C-TPAT, and the Importer Self-Assessment program. We 
are working closely with the other agencies that are so 
critical to our successes.
    As we move forward, I think it is important to reiterate 
those themes. Our economy grows stronger when the way we do our 
job is more compatible with today's business practices. Our 
partnership with the Congress, the trade community, and other 
government agencies is critical to strengthening our Nation's 
economic prosperity and national security.
    I thank the committee again for the opportunity to appear 
before you today, and I will look forward to continuing our 
work together, our partnership, and to answering any questions 
that you might have of us.
    Chairman BRADY. Great. Thank you, Commissioner.
    [The prepared statement of Mr. Aguilar follows:]

    [GRAPHIC] [TIFF OMITTED] T0260A.001
    
    [GRAPHIC] [TIFF OMITTED] T0260A.002
    
    [GRAPHIC] [TIFF OMITTED] T0260A.003
    
    [GRAPHIC] [TIFF OMITTED] T0260A.004
    
    [GRAPHIC] [TIFF OMITTED] T0260A.005
    
    [GRAPHIC] [TIFF OMITTED] T0260A.006
    
    [GRAPHIC] [TIFF OMITTED] T0260A.007
    
    [GRAPHIC] [TIFF OMITTED] T0260A.008
    
    [GRAPHIC] [TIFF OMITTED] T0260A.009
    
    [GRAPHIC] [TIFF OMITTED] T0260A.010
    
    [GRAPHIC] [TIFF OMITTED] T0260A.011
    
    [GRAPHIC] [TIFF OMITTED] T0260A.012
    
    [GRAPHIC] [TIFF OMITTED] T0260A.013
    
    [GRAPHIC] [TIFF OMITTED] T0260A.014
    
    [GRAPHIC] [TIFF OMITTED] T0260A.015
    
    [GRAPHIC] [TIFF OMITTED] T0260A.016
    
    [GRAPHIC] [TIFF OMITTED] T0260A.017
    
    [GRAPHIC] [TIFF OMITTED] T0260A.018
    
    [GRAPHIC] [TIFF OMITTED] T0260A.019
    
    [GRAPHIC] [TIFF OMITTED] T0260A.020
    
    [GRAPHIC] [TIFF OMITTED] T0260A.021
    
    [GRAPHIC] [TIFF OMITTED] T0260A.022
    
    [GRAPHIC] [TIFF OMITTED] T0260A.023
    

                                 <F-dash>

    Chairman BRADY. Mr. Kibble?

   STATEMENT OF KUMAR KIBBLE, DEPUTY DIRECTOR, UNITED STATES 
 IMMIGRATION AND CUSTOMS ENFORCEMENT, UNITED STATES DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. KIBBLE. Chairman Brady, Ranking Member McDermott, and 
distinguished Members of the Subcommittee, it is my privilege 
to testify before you today regarding ICE's investigative 
efforts and strategies to combat illegal trade practices and 
commercial fraud activities. As you know, the growth of 
international trade is an integral part of our Nation's 
economic prosperity. It is imperative, therefore, that we 
protect American innovation and are attuned to any new threats 
to public safety and national security it may pose.
    Today I will focus on three of our major priorities as an 
investigative agency: Protecting American innovation from 
theft, cracking down on complex international property theft, 
and strengthening our borders to combat the threat posed by 
transnational organized crime.
    ICE's Homeland Security investigations HSI Directorate is 
the largest investigative program within the Department of 
Homeland Security, with an extensive portfolio of enforcement 
authorities. Specifically, HSI investigates a wide range of 
trade fraud, including intellectual property theft and 
commercial fraud. Both IP theft and commercial fraud pose 
significant threats to the U.S. economy and health and safety 
of the American public. To focus government efforts and to 
enhance government efficiency, HSI led the creation of the 
National IPR Coordination Center. Now with 20 partners, 
including other Federal agencies, Europol, Interpol, and the 
governments of Mexico and Canada, the IPR Center brings 
together the full range of legal authorities and law 
enforcement tools to combat IP theft in the United States. And 
we are now seeing tremendous results.
    In March of 2012 HSI and our partners at the FBI executed a 
joint enforcement operation which resulted in the arrests of 28 
subjects, including two in Germany. These arrests were 
ultimately the result of a merger of an HSI investigation into 
a large-scale counterfeit smuggling scheme and an FBI narcotics 
smuggling investigation. This investigation revealed this 
organization to be involved in a web of criminal activity, not 
only the smuggling of counterfeit merchandise and narcotics 
trafficking, but also the use of fictitious personal and stolen 
corporate identities to further those activities. The total 
estimated MSRP of seized goods that this organization attempted 
to smuggle was in excess of $300 million.
    Overall, our IPR enforcement statistics have increased 
dramatically over the last 3 years. From fiscal years 2009 to 
2011, arrests jumped 115 percent, indictments rose by 206 
percent, and convictions are up a total of 77 percent. Thus far 
in this current fiscal year, our IP enforcement statistics 
indicate that we will again surpass this past year's record 
results.
    In October of 2007 ICE created Operation Guardian, which is 
the IPR Center's public health and safety initiative. Examples 
of imports targeted as part of Operation Guardian are 
counterfeit toothpaste containing antifreeze, counterfeit 
prescription drugs, tainted pet food, counterfeit circuit 
breakers, and contaminated food products. Since its inception, 
more than 700 investigations have been initiated resulting in 
nearly 200 criminal arrests, over 260 indictments, 171 
convictions, and more than 3200 seizures valued at over $87 
million.
    We recognize, however, that law enforcement cannot do it 
alone, and so we look to partner with private industry in our 
efforts. To enhance and facilitate productive partnerships with 
the public and private sectors, the IPR Center launched 
Operation Joint Venture in fiscal year 2008. It gives industry 
a point of contact they can use to provide us with leads and 
tips regarding efforts to combat intellectual property right 
infringement. Since July 2008 the IPR Center has coordinated 
and conducted 671 outreach events with approximately 35,000 
public and private sector partners.
    HSI also has a long history of engagement in commercial 
fraud enforcement, dating back to our past as investigators for 
the former U.S. Customs Service. HSI investigates U.S. 
importers, companies or other entities that attempt to 
circumvent lawful trade mechanisms, including the payment of 
required duties. The HSI antidumping and countervailing duty 
program is another illustration of how HSI, in close 
partnership with CBP, protect U.S. businesses from unfair trade 
practices and protect the revenue of the United States. The 
goal of an HSI antidumping or countervailing duty evasion 
investigation is to ensure that U.S. industry is protected 
against unfair trade practices and to ensure that the United 
States receives legally required tariff revenue. Currently HSI 
is involved in approximately 100 investigations relating to 
open commerce, AD/CVD orders covering commodities such as 
honey, saccharine, citric acid, tow-behind lawn groomers, 
shrimp, steel, and wooden bedroom furniture. Textile imports 
represent approximately 43 percent of all duties collected by 
CBP, and Operation Unravel was conducted in fiscal year 2011 by 
HSI, CBP, and the government of Mexico's Tax Administration 
Service, or SAT, to primarily target illicit textiles 
transshipment from China through the U.S. and ultimately into 
Mexico under suspected false NAFTA claims. The results of 
Operation Unravel are still being analyzed to identify 
additional vulnerabilities in the bonded movement system.
    So we continue to work using other initiatives as well 
including targeting the vulnerability of in-bond diversion with 
fraud investigative strike teams and have continued to build on 
our commercial fraud program, expanding our statistics are 
trending up. I want to thank you, again, for the opportunity to 
appear before you today, and I would be pleased to answer any 
questions you may have for me.
    Chairman BRADY. Thank you, Mr. Kibble.
    [The prepared statement of Mr. Kibble follows:]

    [GRAPHIC] [TIFF OMITTED] T0260A.024
    
    [GRAPHIC] [TIFF OMITTED] T0260A.025
    
    [GRAPHIC] [TIFF OMITTED] T0260A.026
    
    [GRAPHIC] [TIFF OMITTED] T0260A.027
    
    [GRAPHIC] [TIFF OMITTED] T0260A.028
    
    [GRAPHIC] [TIFF OMITTED] T0260A.029
    
    [GRAPHIC] [TIFF OMITTED] T0260A.030
    
    [GRAPHIC] [TIFF OMITTED] T0260A.031
    
    [GRAPHIC] [TIFF OMITTED] T0260A.032
    
    [GRAPHIC] [TIFF OMITTED] T0260A.033
    
    [GRAPHIC] [TIFF OMITTED] T0260A.034
    
    [GRAPHIC] [TIFF OMITTED] T0260A.035
    
    [GRAPHIC] [TIFF OMITTED] T0260A.036
    
    [GRAPHIC] [TIFF OMITTED] T0260A.037
    
    [GRAPHIC] [TIFF OMITTED] T0260A.038
    
    [GRAPHIC] [TIFF OMITTED] T0260A.039
    

                                 <F-dash>

    Chairman BRADY. Welcome, Mr. Skud.
    Mr. SKUD. Thank you, Mr. Chairman, Ranking Member 
McDermott.
    Chairman BRADY. Mr. Skud, can you hit that microphone 
again.

STATEMENT OF TIMOTHY SKUD, DEPUTY ASSISTANT SECRETARY FOR TAX, 
   TRADE AND TARIFF POLICY, UNITED STATES DEPARTMENT OF THE 
                            TREASURY

    Mr. SKUD. Sorry. Thank you, Mr. Chairman. Ranking Member 
McDermott, Members of the Committee, thank you for the 
opportunity to discuss Treasury responsibilities for Customs 
revenue functions and to discuss the International Trade Data 
System. Authority for Customs revenue functions is important to 
the Treasury mission because taxation and regulation of trade 
have an important effect on our economy and on global growth. 
While enforcement of Customs revenue laws have been delegated 
to the Department of Homeland Security, Treasury retains sole 
authority to approve regulations. One recent example of such a 
regulation, Treasury and DHS have published a proposed 
regulation that would reform the in-bond and transit processes. 
These reforms should enhance revenue collection, they should 
limit evasion of antidumping laws, and they should promote 
security by providing better control over in-bond shipments.
    We work closely with CBP on many areas of mutual concern. 
One of those areas and the focus of my testimony today is the 
International Trade Data System. It is a key component of 
efforts to modernize and coordinate interagency border 
enforcement activities. Today, importers report separately to 
numerous government agencies, sometimes on paper, sometimes 
electronically. Wouldn't it make sense to have a single 
electronic filing with that data distributed by computer to all 
relevant agencies? That would reduce costs to government and to 
business. This is the ITDS vision that CBP and 46 other 
agencies are building as part of the ACE program.
    Some ITDS functions are already operational. For several 
years ITDS agencies have been able to obtain import data that 
CBP already collects electronically and use that data to stop 
unsafe shipments and to eliminate paperwork requirements.
    Two years ago, the ITDS board identified three priorities, 
on which I can report significant progress has been made. The 
first priority was to add data elements required by other 
agencies to the existing CBP reporting messages. CBP has built 
that capability. It is known as the PGA Message Set. CBP 
expects to test it this year.
    The second priority. Accept electronically imaged forms in 
place of paper. CBP has built a document image system to accept 
imaged documents where paper is now required. CBP is testing 
this capability now.
    Third, establish a technical standard for communication 
between agencies' electronic systems. CBP has adopted 
interoperable Web services as a protocol for transferring data 
among agencies. It was successfully tested last year.
    When these three initiatives become operational, CBP will 
have implemented for imports the basic electronic trade data 
interchange system mandated by the SAFE Port Act. Testing and 
implementation are planned for this year.
    With progress on imports, we have begun work on exports. In 
2010, the ITDS board recommended building ITDS export 
capability on existing systems in order to save money and time. 
CBP and the Census Bureau, which has authority for the current 
export commodity reporting systems, have agreed to expand those 
systems to include data required by other ITDS agencies. 
Despite the challenges involved in a project of wide scope and 
involving 47 agencies, the ITDS program can be successfully and 
expeditiously implemented. Our board of directors looks forward 
to working with this committee to make ITDS a success.
    Mr. Chairman, that concludes my oral remarks. I am happy to 
answer questions, and I thank you for the opportunity to 
testify.
    Chairman BRADY. Mr. Skud, thanks for being here today.
    [The prepared statement of Mr. Skud follows:]

    [GRAPHIC] [TIFF OMITTED] T0260A.040
    
    [GRAPHIC] [TIFF OMITTED] T0260A.041
    
    [GRAPHIC] [TIFF OMITTED] T0260A.042
    
    [GRAPHIC] [TIFF OMITTED] T0260A.043
    
    [GRAPHIC] [TIFF OMITTED] T0260A.044
    

                                 <F-dash>

    Chairman BRADY. I thank all the panelists.
    Mr. Aguilar, first, you know, in the past, CBP has not 
necessarily devoted much time to consultations with Congress, 
the trade community, trying to find as you would call it, co-
creation progress going forward. You and your predecessor have 
changed that culture, have spent a great deal of time with that 
outreach. I want to thank you for doing that, encourage you to 
do more of it. I think it is very helpful.
    I have got two questions, one dealing with ACE, one with 
measurements. As you heard from Mr. McDermott, there is 
bipartisan support for getting ACE in place, and there is 
bipartisan concern about the delays and what the future is on 
that program. The reason it is critical--you know, the Trade 
Subcommittee on Ways and Means have three major goals. One is 
to find new customers, level the playing field around the world 
for our American products and services; secondly, to fight 
protectionism, here and abroad, the delay becomes a barrier for 
our products to be sold around the world; and finally what we 
are doing today, which is streamlining the movement of these 
goods and services. Time is the trade barrier in the 21st 
century. ACE could be critical to creating more efficiently 
efficiency in that system.
    My question to you is, looking forward over the next 12 
months, which ACE functionalities can we expect CBP to deliver?
    Mr. AGUILAR. Mr. Chairman, as you said, ACE is absolutely 
critical. ACE, simply put, is going to modernize into the 21st 
century, is going to streamline, facilitate, and give us a 
greater capability at targeting illicit commodities and goods 
coming into this country.
    Having said that, we have prioritized the ACE 
functionalities that we are looking at putting forward. Some of 
those include the going forth on the ITDS, as Mr. Skud pointed 
out, following through with our simplified entry that is 
already the force module, if you will, working towards full 
cargo release. Critically important that we move forward on 
those. Continuing our efforts to include the co-creation of 
what all of the PGAs are looking for us to do. So one of the 
things that, of course, we are faced with are the budget 
constraints. But prioritizing what it is that we have in place 
that will dovetail with what the needs are going forward. 
Complete e-manifest for rail and sea, simplified entry of the 
phase one, the document imaging system that we just talked 
about, the PGA Message Set, and the interoperability. 
Critically important. Moving forward, at or about the 12-month 
period and continuing is going to be something that the trade 
has asked for specifically, which is the entry summary edits 
capability, and then of course working towards integration of 
the exports capability in support of the President's export 
initiative.
    Chairman BRADY. So, Commissioner, in the first 12 months, 
which elements are you looking at?
    Mr. AGUILAR. It is going to be the ACE, continuing the rail 
and sea that is going through the pilot now, it is going to 
continue with the simplified entry that is basically moving 
forward as we speak, and commencing, already commenced a pilot 
on the exports initiative.
    Now, as quickly as we can, because we have already 
allocated from carryover monies, is what we refer to as 
critical fixes on already deployed capabilities, and what that 
means, Mr. Chairman, this is something that is critically 
important to me, is going back to all of those deployments that 
we have deployed in the past that have not worked as well as 
they should have, as we planned them, and as we envisioned 
them. So we are going back to fix those to get them to work as 
they need to be operating.
    Chairman BRADY. Okay. I think there will probably be 
follow-up questions on ACE. Let me ask a final question on 
measurement. We have two young boys. I have discovered that 
putting a bunch of 5-year-olds on a soccer field doesn't 
necessarily mean you will see a soccer game, and creating a 
whole number of new programs and efficiencies doesn't guarantee 
efficiency unless you measure it. So my question to you is, 
what measurements--and I notice the World Bank study recently 
ranked America 9th in measuring the efficiency of our supply 
chain, in Customs efficiency we were ranked 13th in the world 
and international shipments 17th. We did better in some other 
areas such as tracking and tracing, consignments. The goal of 
this legislation is to move up those rankings. So, A, what are 
you measuring today in efficiency and accuracy and security? 
And as we move forward with ACE and others, what other 
measurements will you be looking at?
    Mr. AGUILAR. Yes, sir. Critically important that we take a 
look at the metrics, and for each one of these efforts that we 
are undertaking, we have identified a set of metrics. I would 
like to give you a couple on some of the things that are most 
prominent as an example on ACE. Some of the metrics that we are 
measuring is entry summary filers, and how that is progressing 
moving forward, entry summaries by the filers, how many are 
they actually conducting. Filer entry summary submissions to 
ACE, summaries that are submitted, the percent of eligible 
entry summaries that are filed in ACE, what percentage are we 
seeing in an increase, and I have got some numbers that I can 
provide to you later on if you would like, post-summary 
correction submissions, something that the trade asked for, we 
provided, and now we are finding that they are using it 
tremendously. Validation activities under ACE.
    I spoke earlier about our Centers of Excellence and 
Expertise. We piloted these just back in October of 2011, but 
moving forward on that, one of the things that we set in place 
was our ability to capture the metrics. I will just go through 
a couple of those to show the level of detail that we are going 
through. But under risk segmentation and facilitating the 
legitimate trade, some of the things that we are looking at, do 
the centers maintain or improve the revenue gap within the 
industry standards from the compliance standpoint? Do the 
centers maintain or improve compliance of the revenue within 
the industry standards? Are the centers increasing the 
paperless rate that we are also interested in? Do the centers 
improve the detection rate and increased seizures of high risk 
products? And there is a litany of about 15 metrics that we 
use. So for every one of these, undertaking these that we are 
moving forward on, we have a metrics unit that we are looking 
at for each one of them.
    Chairman BRADY. Right. If you could supply those to the 
committee, that would be helpful. Mr. Kibble and Mr. Skud as 
well, when you are looking at your respective duties, what you 
measure today and are contemplating, that would be very helpful 
to me as we move forward. I cede my time to Ranking Member 
McDermott.
    Mr. McDERMOTT. Thank you, Mr. Chairman. I am a physician. 
We are accustomed to talking over people's heads and using all 
kinds of acronyms and all kinds of words that nobody uses in 
ordinary speech. So as I listen to you guys, I think I am 
talking to a bunch of doctors who are talking to a bunch of 
people that don't know what you are talking about. ACE stands 
for automated commercial environment, whatever the heck that 
is.
    Mr. AGUILAR. Yes.
    Mr. McDERMOTT. We spent billions of dollars on it. And then 
they said, no, it isn't working. And now we are doing something 
new, and that is going to work. Would you explain to me in 
terms that I can understand what it was that was attempted and 
what didn't work? I mean, anybody here can answer. I don't know 
who to direct that at, but if you could do that, I think it 
would help the committee understand what this reauthorization 
is about.
    Mr. AGUILAR. I will begin, and then I will pass it on to my 
fellow doctors here, sir.
    We are moving towards an automated commercial environment 
that takes into account all the technological capabilities that 
basically exist in today's world to ensure that we automate, 
that we connect all the dots of all the participating agencies, 
all the agencies that have an interest on all commodities 
coming into the United States. From a compliance, from a 
revenue perspective, from a security perspective, ACE is going 
to be that backbone that by way of technology, gives all of us 
the insight that we need to have to do the following things: 
And that is to facilitate, to streamline, to secure the global 
supply chain, and to specifically target. In the simplest 
terms, it will give us the means by which to assess risk, but 
critically important to, in a very modern way manage risk.
    So now as----
    Mr. McDERMOTT. Could I just stop you there?
    Mr. AGUILAR. Yes, sir.
    Mr. McDERMOTT. It seems to me that if you are trying to 
work on risk that one of the best ways not to make a mistake is 
to not do anything, don't let anything come in. So if you make 
the system so complicated that nothing can get through it, then 
you will never have any problem, nothing will ever have 
happened because it got into the country. Am I----
    Mr. AGUILAR. And that is exactly what the ACE system is not 
trying to do. It is going to give us the ability to segment 
risk, to assess the risk once it has been segmented, and then 
direct our efforts at that flow of goods and commodities that 
we either know less about or that we have reason to believe we 
need to target because of a high level of risk. Therefore, 
basically identifying the needle in the haystack, if you will, 
by blowing away all the hay of this $2.3 trillion worth of 
imports that we do on a yearly basis. So we have spent a lot of 
money on ACE, but I will brag on CBP over the last couple of 
years in that more has been done in the last 2 years in the ACE 
arena than had been done in the prior 5 years before that.
    One of the things that we are looking at, Congressman, is 
building in what I refer to as chunks, functionalities, 
identifying the functionalities along with the trade community, 
and looking to what is best going to serve the trade community 
and CBP and the rest of the participating government agencies. 
Taking them in chunks, building business cases, and being 
incremental towards, as an example, cargo release, so that at 
the end, we have a fully functional cargo release capability 
that is built over a time period that takes into account the 
incremental necessity and importance of segmentation and risk 
identification.
    Mr. McDERMOTT. What are the other agencies? What is your 
feeling about this?
    Mr. KIBBLE. Well, sir, I am a general practitioner, I am 
not a specialist. However, I would say--and, I mean, this 
relates to ACE but also other initiatives that CBP leverages to 
selectively target. One of the things that we pioneered 
recently through the Commercial Fraud Working Group, which is a 
very close working group that involves leaders from both CBP 
and ICE, are post-investigative analysis reports, and the idea 
here is from an investigative perspective, when we conclude the 
investigation, how do we take that tactical success and turn it 
into something that is of more strategic value?
    Well, we identified methodologies, schemes, things that can 
be used to refine targeting algorithms at the National 
Targeting Center and other systems that CBP leverages to, 
again, focus in on the violators so that we can facilitate 
lawful trade.
    So, I mean, that is just a general observation I have there 
is that we are partnering as we have never before, and not only 
with one another, but obviously with industry to refine the 
method in which we target illicit or suspect trade.
    Mr. McDERMOTT. Do you have any comment that you want to 
fill in anything?
    Mr. SKUD. Well, I will just add, Mr. McDermott, that there 
is sometimes a lot of confusion about what ITDS is, how is it 
different from ACE. Well, they are not two different systems. 
One system, ACE; ITDS is a part of ACE. The basic premise of 
ITDS is let's use the Customs system, ACE, to collect 
information for these other agencies as well so we don't build 
separate systems for each agency to collect it, and Customs 
stores it, gets it to the agencies, makes decisions about it, 
and then gets that information back to Customs.
    Mr. McDERMOTT. Is it seamless to you for countervailing 
duty decisions and so forth?
    Mr. SKUD. Well, I am afraid it is not seamless to me. The 
goal is to make it seamless to the trader so that he is filing 
one place, and he will get one answer back. I am afraid when 
you are trying to stitch together 68 agencies, there is a lot 
of seams in there, but we are focused on--the ITDS program has 
been around for a while. For a long time, there was a lot of 
talk about all the wonderful things we could do. In the last 
few years we decided, look, it is time to concentrate on the 
basics. Let's add the data, let's get it to the agencies, let's 
get those decisions back to Customs. So we are trying to 
concentrate on things we know we can build, things that can be 
built quickly and at relatively low cost.
    Mr. McDERMOTT. Thank you, Mr. Chairman, for extending my 
time.
    Chairman BRADY. No, thank you, sir. Mr. Davis.
    Mr. DAVIS. Thank you, Mr. Chairman. I want to commend all 
of you and your agencies for moving them into the 21st century. 
There are ample models in the private sector with credit card 
architecture, online purchasing, similar relationships with an 
Amazon and a PayPal, for example, that make it transparent to 
that one user that literally links thousands of organizations 
together with very little error. I know this is tedious dealing 
with statutes and regulations, but having done many large 
company implementations myself, nothing to the scale that you 
all have, I feel your pain in that one sense, but it is very 
critical to progress.
    It brings me to my first question. Commissioner Aguilar, as 
you know, CBP facilitates trade on behalf of 48 Federal 
agencies at our border, and according to the agencies announced 
initiatives for 21st century trade, you are also working to 
improve cargo security while increasing trade competitiveness. 
I have been told by a number of people, organizations in the 
trade community that highly compliant importers find the 
benefits of CBP's partnership programs to be severely 
constrained by other agencies' holds at the border, and it is 
my understanding these delays tend to be several days longer 
than CBP holds.
    I have also been told that a multi-agency partnership 
program for highly compliant importers or a certified importer 
program would greatly reduce these delays. I am thinking on the 
TSA side with Global Traveler, for example, if, so we avoid an 
inverse of Pareto's law where 90 percent of the people, in 
effect, are punished for the suspicious behavior of maybe a 
very small percentage.
    As trade continues to increase, especially with the recent 
entry into force of trade agreements with Korea and Colombia, 
how is CBP working with other Federal agencies to streamline 
legitimate trade processing, and how is your agency working 
with other agencies to provide benefits to trusted traders?
    Finally, as kind of a third part to that, have you 
considered a multi-agency certified importer program?
    Mr. AGUILAR. Yes, sir, all critically important questions. 
Let me begin with the last one first. On a multi-agency trust-
based partnership, we are very aggressively working towards 
something that looks like that but, as Mr. Skud said, when you 
have 48 agencies coming together, all having different 
interests for the right reasons, whether it is statutory, 
regulatory, or otherwise, it is hard to do that. But we have 
made some great strides, I believe, in moving in that 
direction.
    The one example that I will give in that venue is what we 
refer to as a Border Interagency Executive Committee that we 
created about a year ago that meets on a quarterly basis, and 
for the first time, brings together all of these interested 
agencies together at one table to start working towards that 
synergy, towards an alignment of interests in order to start 
identifying, as an example, what the PGA Message Set, what are 
the elements that we would need as one government to basically 
satisfy all 48 agencies at one time. We have created the 
Message Set. It had never been done before. So we are moving in 
that direction.
    The issue of other government agency holds, approximately 
60 percent of all holds placed on goods coming into the country 
are placed by other government agencies besides CBP. So when 
that happens, because we don't have that one whole of 
government approach, that one single window, CBP acting as the 
executive agent then has to go to each individual agency to get 
the information required for them if they have a need for it, 
and to get the actual release. Very time consuming.
    Moving towards ACE, that single portal at ITDS, to where 
all of the interested agencies come together in one window, one 
component, one location where all the interests, whether they 
are revenue, compliance, safety or otherwise, are targeted, if 
you will, under ACE, and then fed to the agencies 
electronically, very quickly get the feedback and released. 
That is what we are working towards as we move forward.
    Mr. DAVIS. Well, that is a good point to transition over to 
Mr. Skud. How are you leading the 48 government agencies in the 
International Trade Data System to ensure that all involved in 
the import process are working together to harmonize their 
treatment of importers that participate in trusted shipper 
programs in the processing of their goods?
    Mr. SKUD. Well, the ITDS role is really focused on building 
the electronic platform to provide the information to the 
agencies to allow them to make that decision, those decisions 
based on the best information available quickly. Really, these 
kind of policy decisions about interagency cooperation, these 
are things that are done by the policy leadership in the Border 
Interagency Executive Committee. That is really where the focus 
for that is and not in ITDS.
    Mr. DAVIS. Thank you, Mr. Chairman. I yield back.
    Chairman BRADY. Thank you. Mr. Reichert.
    Mr. REICHERT. Thank you, Mr. Chairman, and welcome to all 
three of you. I especially want to thank Mr. Aguilar and Mr. 
Kibble for your service and the men and women that serve in 
your agencies. I do appreciate your service, too, Mr. Skud, but 
I have a special spot in my heart for law enforcement, being an 
old sheriff myself, so I appreciate the work that all three of 
you do.
    I can identify, as Mr. Davis said, a little bit with your 
pain, the sheriff's office with 1100 employees in Seattle, we 
had responsibility for the metro system, so our challenge was 
to enforce the laws, investigate crime, and keep the buses and 
the trains moving, and sometimes cops really don't understand 
the part about keeping the buses and the trains moving, am I 
right?
    Mr. AGUILAR. Exactly.
    Mr. REICHERT. I know you are working hard on that, so I 
understand that aspect of it as well.
    I want to address my first question to Mr. Skud. Now, you 
said in your opening comments taxation and regulation of trade 
have an impact on our economy. That is, I think, a pretty mild 
comment. So I am really interested in your views on how U.S. 
policy is actually deterring goods from moving through our 
ports, specifically the harbor maintenance tax, and in 
Washington State, as you know, we have the Port of Tacoma and 
the Port of Seattle, and that harbor maintenance tax has 
created a situation where some of our world partners are now 
heading their ships to Vancouver, Canada, and Prince Rupert, 
and so we are losing some business in Seattle as a result of 
this tax, and it strikes me as a very clear cost advantage that 
U.S. policy is conferring on foreign ports. The fewer goods 
that are shipped through our ports obviously, the fewer jobs 
they sustain.
    So do you agree that imposing this tax and how it is 
currently imposed on inbound marine cargo could discourage 
shipping through U.S. ports and harm our competitiveness? We 
like to think of ourselves in Seattle and in Tacoma as the Port 
of Chicago because we only keep about 30 percent of the goods 
that come into those ports, and 70 percent go across the 
country. Vancouver is quickly becoming the Port of Chicago, and 
we are concerned about that.
    Mr. SKUD. Well, Mr. Reichert, as a native-born Seattleite 
and graduate of the University of Washington, I have some 
familiarity with the Port of Seattle and Port of Tacoma.
    Mr. REICHERT. Good to hear.
    Mr. SKUD. And under the current law, there is the harbor 
maintenance tax on shipments coming into U.S. ports, including 
those two ports, and to the extent that that raises costs on 
shipments to those ports vis-a-vis competing ports in Canada, I 
would have to agree that it provides an incentive for people on 
the margin to ship through another port.
    Mr. REICHERT. We see this as a pretty serious problem, as 
you might guess, in our area of the country. Would you commit 
to working with me on finding a solution to this problem?
    Mr. SKUD. I would be happy to work with your staff to 
address the issue.
    Mr. REICHERT. Great. Do you have any ideas today on how we 
might be able to do that or do you want to wait until another 
time?
    Mr. SKUD. I think I better wait.
    Mr. REICHERT. Okay. I appreciate your commitment, Mr. Skud. 
Thank you so much.
    Mr. Aguilar, I have worked with Customs for a long time 
over my career on the issue of circumvention devices here in 
Congress, and, you know, this helps thieves pirate U.S. 
intellectual property, including many video games made in and 
around our congressional district by companies like Nintendo 
and Microsoft. It is my understanding that Customs will seize 
these devices but that you don't share them with the affected 
U.S. companies. Do you have anything like Mr. Kibble described 
as a joint venture, private-public relationship where you can 
share these things with our public companies so that they know 
what is happening when this technology is stolen?
    Mr. AGUILAR. Congressman, one of the things that has just 
come about, and we are very grateful, which will be a 
tremendous tool for us, is the IPR information sharing 
capability that we just issued the interim final rule on, and 
under that, what we now have the capability to do is that 
within 7 days of Customs, CBP seizing a commodity, we will go 
to the importer and ask them for evidence if we believe that it 
is counterfeit or is an IPR violation, a trademark violation, 
and they, of course, are more than welcome to provide us with 
some information to prove that it is not a violation.
    After 7 days, we are now capable and very much willing to 
share with the rights holders the information, pictures, things 
of a commodity that we haven't had in order for them to help us 
validate or verify that it is, in fact, a valid product, or 
that it is a violative product. So we have that capability in 
place.
    Mr. REICHERT. Thank you. Thank you, Mr. Chairman.
    Chairman BRADY. Thank you. Mr. Neal.
    Mr. NEAL. Thank you, Mr. Chairman. I have a company in my 
district that manufactures high quality knives and other types 
of tools, and I have visited with them a number of times, and 
they sell the tools in the U.S. and as well as internationally. 
They have been in business for over 100 years, and they employ 
100 people in Southbridge, Massachusetts, it is Hyde Tools. 
They suggested that the procedures for filing an antidumping 
action should be made more accessible to small and medium-sized 
enterprises. They tell me they were forced out of the U.S. 
market for a particular tool that was dumped by a foreign 
company, but they didn't file an antidumping case because, as a 
small business, they couldn't afford the expense.
    For the witnesses here, would you care to suggest a path 
forward, making it easier for these small business types to 
file antidumping actions?
    Mr. SKUD. We are all here on sort of the other end of the 
collecting the money side, but I would be happy to work with 
your staff to connect them with the right people at the 
Department of Commerce who work on the input side, the filing 
side.
    Mr. NEAL. Okay.
    Mr. AGUILAR. Congressman, I would add to that that one of 
the things that was actually put in place because of some of 
these concerns is what we refer to as e-allegations where when 
there is a belief or there is an incident where a company or 
individuals or an industry believe that something is happening 
in the IPR environment, by way of virtual connectivity to CBP 
through e-allegations, they can commence that effort also.
    Mr. NEAL. Okay. Let me follow up with you, Commissioner, as 
well. Coming from a State where there is a great deal of chip 
manufacturing and also the acknowledgment that there are 
millions of counterfeit chips that are imported into the United 
States, I am told that these chips have been found in many 
critical applications, military weapons, voltage regulators for 
the automobile antilock braking and air bag systems.
    You mentioned in your testimony that last month, your 
agency published an interim final rule that reflects new 
authority that permits Customs to share prior seizure, and also 
photographs of suspected counterfeits with trademark holders to 
assist your organization in determining whether or not the 
goods are counterfeit. Can you provide the committee with any 
additional information on that?
    Mr. AGUILAR. Other than that we are now taking those 
actions, we have that capability, we welcome that capability, 
and it will help us tremendously in making determinations as to 
whether the products that we have seized are, in fact, 
violative by being able to share that information, that 
product, that picture, things of that nature with the 
copyrights holder. A tremendous tool.
    Mr. NEAL. Thank you. And lastly, one of the witnesses on 
the next panel who is the COO of Leggett & Platt, they have a 
presence in Oxford, Massachusetts, in my constituency. In their 
testimony they estimate that Treasury loses well over a billion 
dollars in unpaid duties each year. That is a pretty 
significant number. As a cosponsor of the ENFORCE Act, this 
bill would help to create a formal process for stakeholders to 
petition Customs to investigate possible evasion, and I hope, 
Chairman Brady, that we can consider this legislation as well, 
and for all the witnesses, what might you suggest along that 
path?
    Mr. AGUILAR. As to the pending bill, I think--I don't want 
to speak for my fellow doctors here, but I think we would all 
welcome the opportunity to assess and to work with the Congress 
on any bills going forward, absolutely.
    Mr. NEAL. Given that Boston port is the equivalent of open 
heart surgery as you know.
    I thank the panelists, Mr. Chairman.
    Chairman BRADY. Thank you, Mr. Neal. Mr. Herger.
    Mr. HERGER. Thank you, Mr. Chairman.
    Commissioner Aguilar, I understand that membership levels 
for CBP's two partnership programs, the importer's self-
assessment C-TPAT have leveled off. In fact, ISA membership 
hasn't budged since 2007 when the program was started and about 
200 companies joined. The ISA was meant to incentivize better 
compliance.
    If a company opens its books and demonstrates trade 
compliance, CBPs will offer tangible benefits, but industry 
reports that it doesn't find the benefits to be material. What 
kinds of material benefits can we provide especially for 
smaller- and medium-sized companies?
    Mr. AGUILAR. A couple of things on that question. The two 
top trust-based partnerships that we have are, in fact, ISA and 
C-TPAT. C-TPAT is over 10,250 members now. It has grown 
dramatically. The ISA has, in fact, stabilized, and last week 
that was one of the main focuses that we had at our trade 
symposium. Identifying the benefits. ISA is compliance program, 
C-TPAT is a security program. We are very seriously taking a 
look at melding the two as one so that the benefits that are 
derived from both will be a package, if you will. Everything 
from front-of-the-line benefits, the reduction in inspections 
or examinations. As an example, C-TPAT members right now are 
seven times less likely than a non member to get inspected or 
examined. The number of audits under the ISA that occur will be 
reduced.
    So those are the incentives that we are looking to package 
up as one trust-based program. We are working with the trade 
industry to see what other benefits we might be able to jointly 
identify.
    There are other efforts underway that I hesitate to share 
with you in this venue only because we are still working on 
them, but very quickly, I would anticipate within the next 60-
90 days, we will be able to share some of the incentive areas 
that we are looking at within ISA because it is a critically 
important program.
    Mr. HERGER. Thank you. It sounds like you agree that this 
is important to measure the outcomes of this program for C-TPAT 
members, such as clearance times, not only to ensure efficiency 
but also to encourage greater participation in the program.
    Mr. AGUILAR. Absolutely. Congressman, I would add the 
following because I feel it is critically important. Under our 
C-TPAT program, there have been two studies by the University 
of Virginia where both studies have shown, this is an 
assessment on the participants, that the members have found it 
very beneficial from both the benefits' perspective and 
improvement perspective on their business processes when they 
join C-TPAT.
    Mr. HERGER. Again, one of the defining points I think would 
be that we have more members joining, and I think there is a 
concern that we haven't had more. So that is important we work 
on that.
    Also I was hoping you could go into more detail on the 
Centers for Excellence and Expertise, CEEs. What were the 
outcome from the two pilot centers in California and New York? 
What benefits did they provide to the trade community and to 
CBP.
    Mr. AGUILAR. I have to tell you, Congressman, this is 
something we love to talk about, and the reason for it is 
because of the immediate outcomes were very depictive of our 
vision for the CEEs and actually went beyond. The vision was 
standardization, consistency, bringing more transparency to 
that industry sector that we are dealing with, and driving a 
more compliant and facilitative process.
    As an example I will give you the following. On the request 
for information, the so-called CF 28s that are filed at ports 
of entry when a commodity or product is coming in, there are 
members of the industry that will actually come in through 
several ports, 60, 70, 80 of the 329 ports. In the past, the 
way we used to work, each port would have the ability, and we 
would exercise that ability and enforcement right, to ask for a 
request for information. That would place a hold on the 
shipment. Under the Centers of Excellence and Expertise, there 
will be one request per information as opposed to 60, 70 or 
several other ports of origination. There will be one response.
    So it makes a tremendous difference on facilitation, on the 
streamlining. It brings together, the CEEs bring together all 
the disciplines within CBP in one centralized location as 
opposed to the fragmented means that we operate under 
currently. When we finish off the CEE's effort, we have 
identified--at this point in the time, we have identified nine 
industries where we believe Centers of Excellence and Expertise 
will apply.
    We have announced automotive and aerospace, we have 
announced pharmaceutical, electronics, and petroleum, natural 
gas and minerals. We are looking to go towards agriculture, 
base metals and machinery, consumer products, and mass 
merchandisers, industrial and manufacturing materials, 
textiles, wearing apparel, and footwear as we move forward.
    So each one of those will have that ability to standardize 
and bring more consistency and harmony as to how we do business 
and be more facilitative.
    Mr. HERGER. Thank you. Thank you, Commissioner.
    Chairman BRADY. Can you forward us the list of those future 
CEEs?
    Mr. AGUILAR. The ones that are being contemplated, yes, 
sir, absolutely.
    Chairman BRADY. Mr. Buchanan.
    Mr. BUCHANAN. Thank you, Mr. Chairman. I want to thank all 
of our witnesses for being here today. I just wanted to mention 
one thing, quickly. I did get a chance to get down to El Paso, 
met with Customs and Border Protection. They were telling me 
out of the four ports of entry there, 21 million people 
northbound a year. Very impressive. I was very impressed in 
terms of the professionalism and just staggered by the amount 
of work that the people do there in your organization.
    But I wanted--I mentioned this a little bit earlier, 
Commissioner, and I touched base with you. Let me run through 
this. Sarasota Bradenton International Airport, which is about 
an hour south of Tampa, maybe 50 minutes south of Tampa 
International Airport, is a user-fee airport, and has one 
dedicated CBP officer stationed there. Sarasota pays all the 
costs of the officer presently. No commercial International 
carriers are landing there today, so that there is no need to 
clear Sarasota airport. So the single officer clears primarily 
general aviation. Also, we have a port in my area, in terms of 
Port Manatee, they work closely with the port.
    In 2005, when Sarasota last had a Canadian commercial air 
carrier, Canjet, they had some additional officers, CBP 
officers were assigned to the work with that in terms of the 
flights. They were brought down from Tampa. Sarasota reimbursed 
all of the overtime and travel costs for all of the extra 
officers.
    Last year, Sarasota was close to securing an international 
carrier with a proposed schedule of twice-a-week flights. When 
they discussed this with the Tampa CBP director, they were 
informed that the general counsel of Washington was 
interpreting the U.S. law in a different manner than 
previously, and applying it to a user fee airport. CBP is 
requiring that user fee airports pay the annual full-time costs 
of each officer needed, even if you are only using them once or 
twice a week, and in this case, it would have been probably for 
4 or 5 months a year.
    As an example, Sarasota had secured Condor service from 
Europe twice a week for 7 months, Sarasota would need to pay 12 
full-time officers at an expense of $1.7 million roughly per 
year, regardless of the fact that Sarasota would only need them 
8 hours a week for 7 months. That renders the service 
unattainable.
    I guess my question was to you, as it results to that, 
Commissioner Aguilar, why has CBP taken such a hard line? Is 
this standard? It seems to me to be unreasonable. I am 
concerned about tourism and economic development in terms of 
our region, and I would say it would be not just applicable to 
Sarasota but applicable to any airport around the country 
because we would like to think that one flight could lead to 
additional flights. We have almost a million people in our 
economic region there.
    Do you have any thoughts on that?
    Mr. AGUILAR. Congressman, I am unfortunately unfamiliar 
with the Sarasota situation as you just described it. I know 
that we talked earlier. I would like to take that for the 
record and get back to you. I agree with you that we need to 
revisit if, in fact, the description you just gave, and I will 
take it for the record and get back to you on it, sir.
    Mr. BUCHANAN. I know that in the 4 or 5 years ago, they did 
provide service out of Tampa and we paid all of the expenses. 
So it is something that has been--you have had a precedent 
before where you have done it. But now they have taken a hard 
line and it is something we have been pushing pretty 
caressively on it. I say ``we,'' the authorities at the 
international airport there. Are there any other suggestions or 
any other ideas that you would have as it relates to that 
today?
    Mr. AGUILAR. Again, I am unfamiliar with just what part of 
the process we are in.
    Mr. BUCHANAN. Basically it is a low activity airport, and 
we need part time workers, but again, there would probably be a 
premium because you have got to move them around or whatever. 
We are willing to pay everything plus probably a little premium 
on top. The airport is well-financed. So it is not a question 
of picking up the expenses. It is just that they don't want to 
have 10 people sitting around for a year where you really don't 
need them.
    Mr. AGUILAR. Exactly. I will review the situation and get 
back to you with any options that may be available to us.
    Mr. BUCHANAN. I would appreciate that. Mr. Chairman, I 
yield back.
    Chairman BRADY. Thank you. Mr. Schock.
    Mr. SCHOCK. Thank you, Mr. Chairman. I, too, have a 
question for Commissioner Aguilar. Thank you for being here. 
Over the last several months, Customs and Border Protection has 
taken some positive steps to enhance their supply chain 
security. The air cargo advance screening program has been 
successful and is a good model to build on as it continues to 
expand. You also recently signed an agreement recognizing the 
U.S. and European Union Custom Security Programs, which is 
another positive step in securing the supply chain. I want to 
say that we appreciate your efforts in this area and 
congratulate you on this recent agreement.
    At the same time, it is also important that we find ways to 
improve the flow of the supply chain in a cost-effective and 
efficient manner. One of the ways to do this is to reduce the 
burden of importing lower-value shipments into the U.S. If 
someone ships something into the U.S., the current exemption 
from entry as you know is $200. However, if an individual comes 
back from abroad and is bringing back goods into the U.S. with 
them, there is a personal exemption of $800. The cost to 
process of these low-value shipments and the disparity in these 
two levels of exemptions seem both impractical and also 
potentially a barrier to growth in jobs that could be created 
from the importation of low-value shipments, such as Internet 
sales of low-value retail goods.
    My question for you is whether or not CBP would be 
supportive of increasing this de minimis level from the current 
$200 level to be something more similar to the personal 
exemption level of $800 or more in order to reduce some of the 
costly administrative burden of processing those level 
shipments.
    And also in mind of our bipartisan goal here in Congress to 
increase exports and imports, obviously this is a barrier as it 
stands. What is your position on that?
    Mr. AGUILAR. Congressman, I think the question that you 
asked, the way that I would answer it is in two parts: One is 
from the operations of the revenue collection; and then the 
second part, which I think goes more towards my partner, Mr. 
Skud over here, is revenue generated. So I will take the 
operations portion of that.
    From an operational standpoint, the raising the de minimis 
to $1,000 or whatever it would be, does not really impact us 
operationally. This same amount of work basically will go into 
collecting either the $200 or the $1000. So from an operational 
standpoint, it would stay neutral. Now I can say----
    Mr. SCHOCK. Doesn't it impact more goods?
    Mr. AGUILAR. Again, I think that is the revenue-generating 
portion that----
    Mr. SCHOCK. Revenue aside, if you are affecting all 
shipments of up to $800, I am sorry. If you are only affecting 
shipments over 800 as opposed to shipments over $200, revenue 
aside, you are having to touch and be involved with more 
shipments or more.
    Mr. AGUILAR. Yes, sir. And the assessments that we have 
done, and we have done some of these minimally in the past, in 
fact, there has been an actual assessment on the $200 up to 
$1,000, and it has shown that operationally it would have 
minimal impact.
    Mr. SCHOCK. So you need to have the same number of people 
and the same amount of work?
    Mr. AGUILAR. Because it is done all virtually and 
electronically, yes, sir. Now, the one thing I would add, and 
then if Mr. Scud is interested, I will pass on addressing this 
also from a revenue-generating perspective, is one thing we are 
doing is on the informal entry, is that we are moving forward 
to moving that up from $2,000 to $2,500, and we are formulating 
the interim final rule as we speak in order to move that 
forward, and that will probably be within the next 60 to 90 
days, but again, that is only on the informal entry.
    Mr. SCHOCK. Let me ask you looking at it from a different 
perspective. Obviously as the agency from your perspective, it 
doesn't reduce your burden, would you admit though that by 
raising the de minimis level from $200 to $800, you are 
reducing the burden on constituents, on the business community, 
on the trading community, if you will?
    Mr. AGUILAR. I think that is a fair statement, yes.
    Mr. SCHOCK. Mr. Skud, do you have a perspective on this you 
would like to share?
    Mr. SKUD. Under the current statutory scheme, there is 
regulatory authority to increase the de minimis amount if we 
can demonstrate that the savings and processing costs would 
be--would counteract the losses in revenue. And as Commissioner 
Aguilar pointed out, because the processing would be the same 
and the processing is largely electronic, and so all of the 
costs are--they are--we haven't seen any evidence of savings 
there, certainly, if there was a legislative change, that would 
be, in essence, a tax reduction. Businesses generally look at 
tax reductions as less of a burden, but the administration 
hasn't taken a position on the bill to my knowledge.
    Mr. SCHOCK. Okay. My time has expired, but we are working 
on the legislative fix as well, so thank you.
    Chairman BRADY. Thank you, Mr. Schock. Mr. Smith.
    Mr. SMITH. Thank you, Mr. Chairman, thank you to our 
witnesses as well. Mr. Aguilar, the United States and Canada 
are each others' obviously largest export market. Can you tell 
us what the status is on the U.S.-Canada Beyond the Border 
Action Plan unveiled December 7, and is CBP pleased with the 
progress of the plan to date, and what outstanding 
recommendations do you see moving toward implementation, and 
how will they benefit the trade community?
    Mr. AGUILAR. Beyond the Border Action Plan consists of 
over, I believe it is 34 or 35 actual items, of which CBP is 
the lead for all about 16 of them, for obvious reasons. We were 
basically at the border, and what we are looking to do on 
Beyond the Border Action Plan is to harmonize policy, harmonize 
operations, harmonize the consistent way in which we do 
business. I can report to you that the efforts ongoing between 
the U.S. and Canada and all of the agencies involved I think is 
moving forward in a very positive manner.
    For those that we are responsible for, of course, there are 
some that are more challenging than others, especially when it 
comes to the interagency alignment, if you will, and that is 
not just from the U.S., it is also from the Canadian side, CBSA 
is as responsible as we are for the ports of entry.
    So that is being worked at the highest levels, actually 
above CBP and CBSA, to make sure that that alignment happens.
    But my report is that we are pleased. I think both Canada 
and the U.S. are both moving very assertively forward. There 
are going to be some challenges, which, I believe, my ex-
sheriff up here would appreciate on what we are calling NextGen 
which is the, literally the patrolling capabilities between the 
RCMP, ICE, CBP and other agencies jointly. But it is that 
harmonization, that consistency that dovetailing, that synergy 
that we are all working towards, and again, my report is, I 
believe, it has moved forward very positively.
    Mr. SMITH. Can you touch on some of those items you 
mentioned by number?
    Mr. AGUILAR. Well, one of the ones that is probably--one of 
the challenging ones is probably CBSA, operating from Messina, 
Messina, New York, the port of entry on U.S. land; pre-
clearance; another one is preclearance, working preclearance 
operations by U.S. officers and Canadian officers on each 
other's areas of operations; identifying ports of entry that we 
may look to either build infrastructure on or build a policy to 
align on. Some of these ports of entry we might look to 
reducing, mitigating or even closing some of these in the 
future. But again, those are the things we are harmonizing our 
efforts on as never before.
    Chairman BRADY. Thank you, Mr. Smith. Ms. Jenkins.
    Ms. JENKINS. Thank you, Mr. Chairman. Thank you for joining 
us.
    Commissioner Aguilar, could you tell us about Customs' 
allocation of import specialists trained in textile and apparel 
verifications? We have been told that import specialists who 
have been trained specifically to do textile and apparel 
clarifications are often assigned to ports that receive very 
little such trade. I know that Customs does an annual review of 
import specialists and their locations.
    With an increasing need for enforcement and facilitation at 
high-volume ports, what are your plans to ensure these ports 
have adequate staffing, and more importantly, adequate 
training?
    Mr. AGUILAR. A couple of things on that question, I think, 
that is important to mention. One, is that the floors on all 
trade positions, we have sustained, in fact, as we speak, we 
are actually above those floors on the trade positions that 
have been set by Congress. So I want to begin there.
    To the question of textile import specialists as to where 
they are assigned, I don't have the exact numbers, but I would 
answer that question with the following: That brings to light 
the importance of us undertaking the initiatives that we have 
such as the Centers of Excellence and Expertise, because what 
that will do, that will give us the capability, again, as I 
said earlier, either virtually or physically, to service in a 
specific portion of the industry.
    I mentioned earlier that one of the CEEs we are looking to 
provide is textiles, wearing apparel, and footwear, to where 
the textile industry would have one centralized location with 
all of the textile specializing import specialists, all of the 
national account managers, all the account management, and all 
of the other disciplines that will be brought to bear in one 
centralized location to service the textile industry. So that 
is the vision. That is what we are moving forward on.
    Ms. JENKINS. Thank you, Mr. Chairman. I yield back.
    Chairman BRADY. We are pleased to be joined by Dr. Charles 
Boustany. Key Member of the Ways and Means Committee but also a 
leader in trade issues. Dr. Boustany, welcome.
    Mr. BOUSTANY. Before I ask questions, I ask unanimous 
consent to include two letters, one from the Crawfish 
Processors Alliance, and the other from our Louisiana 
Agriculture Commissioner to be made part of the record as well 
as testimony from one of our colleagues in Congress from our 
Louisiana delegation, Mr. Richmond.
    Chairman BRADY. Right. Without objection.
    [The letters follow: The Honorable Charles Boustany Letter 
1, The Honorable Charles Boustany Letter 2]

[GRAPHIC] [TIFF OMITTED] T0260A.045




                                 <F-dash>

[GRAPHIC] [TIFF OMITTED] T0260A.046


                                 <F-dash>

    Mr. BOUSTANY. Thank you, Mr. Chairman.
    I think we all agree that evasion of our trade remedy laws 
is a serious problem, and additional authorities, perhaps 
legislation, is going to be needed to provide more tools. I am 
very sympathetic to the complaint raised by some American 
companies that CBP, in effect, becomes a black box after 
receiving allegations of evasion and provides little or no 
feedback on the adequacy of the allegation, what steps are 
being taken by CBP or another agency as a result of the 
allegation, or even the ultimate outcome of any of the actions.
    On the other hand, I have to say I am very concerned about 
imposing artificial deadlines on investigating invasion because 
some of these cases are more complex and just simply 
arbitrarily placing a deadline would be problematic.
    So I would like to understand how can CBP and ICE work 
better with the private sector on evasion without undermining 
its ability to investigate or otherwise address evasion. If you 
could all answer that for me, I would appreciate it.
    Mr. KIBBLE. Congressman, one of the joint ventures that we 
have at the Intellectual Property Rights Center, one of the 
things we do is in the outreach and training section. We have 
very robust engagement with the industry, and we do communicate 
whether we, for example, are opening a criminal investigation, 
and perhaps, what location that may be at. Now, obviously, as 
the investigation continues that we are limited in terms of the 
types of things we can share in a criminal context.
    But we are committed--we put together, in particularly, 
talking about to seafood industry, for example, we have really 
enhanced our engagement with the seafood industry in 
particular, as well as others, to learn from the industry, to 
inform our operations, but also, again, to share what is 
appropriate to share in terms of the status investigations so 
that it is not a black hole. There is not another lack of 
information.
    Mr. BOUSTANY. What happens when an E-allegation is filed? 
Can you walk us through some of the steps?
    Mr. AGUILAR. On the E-allegation specific. We, CBP, will 
take the initial efforts to start identifying that which has 
been reported. We work hand-in-hand with the Department of 
Commerce which, as you know, Congressman, will actually take on 
the investigative portion of that. Now, that is where I think 
some of the concerns start to make into play. The antidumping, 
countervailing duty system that we have in place right now is 
very challenging and it is very complex. It is not any one 
agency that can service the interested parties on the outside. 
We, too, are very appreciative of the frustrations that exist 
out there.
    Mr. BOUSTANY. Is there a better way to set up an 
interagency process or point of contact?
    Mr. AGUILAR. I think the points of contact, and again, this 
is my take on it, the points of contact are there. E-
allegation, the countervailing case development, moving it 
forward, but it is just a complexity of the system that we have 
in place and procedurally what we have to go to and what we are 
constrained by once an investigation begins. There is only so 
much that can be shared with the public.
    Unfortunately, our system right now that we have in place 
sometimes that takes up to 2 and 3 years before a final 
decision is made. As you know, Congressman, at that point then 
when we, the CBP, are given the go-ahead to start collection 
proceedings, some of these companies have either gone out of 
business, have changed names or are unaccessible to us in other 
parts of the world.
    So it is a very difficult, very challenging, very complex 
system that we have in place, but the one thing I can tell you 
with our partners in ICE and commerce, everybody is very 
focused on moving within the constraints that we have as 
aggressively as we can on the cases that we do have.
    Mr. KIBBLE. Sir, if I could add one thing. These 
investigations are so complex, and there are certain challenges 
we face in terms of prosecution. But I will tell you the 
antidumping countervailing duty investigations have been a 
principal focus of the commercial problem working group, and 
one of the things that I think will be helpful in terms of 
expediting the resolution of these investigations and getting 
more of them prosecuted is training.
    Because we have a number--and this includes, by the way, 
training for prosecutors, that perhaps also recognizes the 
sensitivities in terms of the delays that these investigations 
can take. But as the Commissioner indicated, there are hurdles 
to overcome in terms of when these cases go a certain track.
    Mr. BOUSTANY. We will work with you to hopefully get the 
system even better.
    One of the last issues, if, Mr. Chairman, if I might just 
ask one quick follow-up question.
    Boots on the ground. Your ability to get boots on the 
ground to investigate a lot of these cases, that has been an 
issue as well, and particularly foreign jurisdictions. Could 
you address, briefly address that.
    Mr. KIBBLE. There have definitely been challenges in terms 
of, in some cases, travel advisory--and here I am talking about 
commercial fraud in general, not just, or perhaps forced child 
labor investigations and other types of disciplines. There can 
be difficulties. I mean, in some cases there may be 
unwillingness on the parts of the government to assist us in 
furthering the investigations. Some of the inspections that--
the verifications that we seek to do. There are some challenges 
there.
    I would say that we have expanded our global presence, 
within ICE anyway. We have about 71 foreign offices around the 
world--we have been going through a footprint analysis to make 
sure that it doesn't reflect this historic Cold War footprint 
and looks at the challenges of the future and where the cases 
are. And part of that, though, is there is one thing about 
getting boots on the ground, but there is the willingness of 
the government to work with us, so that is the significant 
issue as well in terms of where we choose to invest the scarce 
resources we have.
    Mr. BOUSTANY. Thank you, gentlemen. Look forward to working 
with what we have.
    Chairman BRADY. Thank you, Doctor. I want to thank all of 
the witnesses. Reminders, Commissioner Aguilar, you were going 
to present, send us a list of the functionality for ACE for 
this year and a list of the CEE topics subjects are going to 
be, and I think all three of you have agreed to send us your 
measurements, both what you are looking at today and what you 
are thinking about looking at again. We are all in our jobs to 
make improvements and progress, and if we know what you are 
looking at, we can also obviously add our thoughts to that as 
well. I want to thank you all for being here today.
    Our second panel of witnesses is from the private sector. 
First as he makes his way up here, a special welcome home to a 
former Ways and Means staffer, George Weise, who will give us 
his perspective both as a former Customs Commissioner and now 
as an Adviser in Trade.
    Mr. Sekin and Mr. Mullen will testify on how related 
services add value to our supply chain.
    Mr. Williams and Mr. Glassman will testify about the 
importance properly assessing and collecting the anti-dumping 
duties and the impact these duties have on their products and 
ability to provide jobs.
    And as we get settled in, I would like to pass Dr. Boustany 
to personally introduce Mr. Williams.
    Doctor?
    Mr. BOUSTANY. Thank you, Mr. Chairman. Thank you again for 
letting me participate in this hearing.
    It is my pleasure to introduce John Williams with over 40 
years of experience in every aspect of the shrimp industry, 
John now serves as the executive director of the Southern 
Shrimp Alliance.
    In addition to his leadership role with the alliance, John 
serves on numerous advisory panels, supporting the shrimp 
industry on a wide range of issues. And it should not be a 
surprise to anyone in this room that our Gulf shrimpers and 
other aquaculture industries are facing serious challenges from 
the invasion of anti-dumping and countervailing duty orders.
    Given the hurdles our domestic industries face, and John's 
firsthand knowledge, I look forward to hearing his expert 
testimony today, and John, I just want to thank you for joining 
us for sharing your insights on the problems and possible 
solutions.
    Again, Mr. Chairman, thank you for allowing me to 
participate and I yield back.
    Chairman BRADY. Thank you all for coming here today. We 
will submit your written statements for the record, and I ask 
you to limit your statements to no more than 5 minutes. Mr. 
Weise, thank you for joining us.

    STATEMENT OF THE HONORABLE GEORGE WEISE, EXECUTIVE VICE 
 PRESIDENT, SANDLER & TRAVIS TRADE ADVISORY SERVICES, (FORMER 
                    COMMISSIONER OF CUSTOMS)

    Mr. WEISE. Thank you so much for your kind introduction. It 
is a pleasure to be back in this room where I spent 9 very, 
very interesting positive constructive years. It is a 
homecoming for me, and it is great to be here to talk about an 
agency that has meant so much to me for so many years.
    I am appearing today in a personal capacity, and not on 
behalf of any organizations to which I am affiliated. In the 
interest of time this morning, I will focus my oral comments on 
the critical need to see ACE and ITDS fully implemented as soon 
as possible, and I thank you for submitting my entire statement 
for the record.
    My hope in appearing before you today is to provide some 
historical perspective on this important issue. My views have 
been shaped from 40 years of experience in the Customs and 
trade field, from my early days working as a GS-5 import 
specialist for U.S. Customs in the Port of Baltimore, my 
Customs oversight worked while serving this committee, 
including the development and enactment of the Customs 
Modernization Act of 1993, and my tenure as Commissioner of The 
U.S. Customs Service from 1993 until 1997.
    Since leaving government service in 1993, since then '93, I 
have spent 15 years working in the private sector trying to 
help commercial companies cope with government regulations and 
get goods moved as quickly as possible.
    Much has changed since I left office as Commissioner in 
1997. The old Customs service in the Treasury Department has 
become U.S. Customs and Border Protections. CBP is more than 
triple the size of the former Custom service, with a much 
broader mission and a focus on border security as a critical 
component of the Department of Homeland Security in the 
aftermath of 9/11.
    Congressional oversight of the agency has also become more 
complex. In the good old days, when the Committee on Ways and 
Means and the Senate Finance Committee had exclusive 
jurisdiction over the former U.S. Customs Service, numerous 
committees and subcommittees now share oversight responsibility 
for CBP.
    Today, CBP is responsible for a myriad of challenging and 
complex missions to safeguard our Nation and, for the most 
part, is doing an outstanding job. Although it is 
understandable that CBP has placed the highest priority on 
security and anti-terrorism, it is also clear that CBP needs to 
play a critical role in our national economic security by 
effectively executing its trade enforcement and facilitation 
missions.
    As much as things have changed since my days as 
Commissioner, I am also struck and distressed by how much they 
remain the same in implementing the tools necessary to 
effectively address CBP's national economic security mission.
    With the leadership of this committee, the Congress enacted 
the Customs Modernization Act in the fall of 1993, soon after I 
became Commissioner. This legislation significantly changed our 
Customs laws to enable modern techniques and procedures to be 
applied to the importing process. Charged with implementing 
that important legislation, it immediately became clear to me 
that a new automation system was critical to achieve the 
modernization objectives of the MOD Act, since the decades-old 
automated commercial system which was in place at that time was 
not capable of handling many of the new streamlined procedures 
of the MOD Act. Also I was told that it was crumbling because 
of overuse and lack of capabilities.
    It was also clear that we had to find a way to consolidate 
the data requirements placed on importers by the numerous 
government agencies involved in regulating imports. To address 
both issues, we began, at that time, back in 1994, working with 
Congress to seek funding for ACE and ITDS. Needless to say, it 
is extremely disappointing that nearly 20 years later, after 
the expenditure of many millions of dollars, we are still far 
from completion of ACE or ITDS.
    I commend former Commissioner Bersin and Commissioner 
Aguilar for their leadership in recent years. They have 
recognized the importance of CBP's economic security mission 
and made significant strides to address these shortcomings. 
Notwithstanding these positive efforts, however, we are nowhere 
near where we need to be.
    In my judgment, the commercial operations of CBP are 
lagging vis-a-vis the security mission of CBP. Despite 
significant efforts and millions of invested dollars, we are a 
long way from bringing ACE and ITDS to successful conclusion.
    It is clear to me that the top priority to address these 
issues is to find a way to bring ACE and ITDS to a successful 
conclusion, and with that, retiring the ACS system as soon as 
possible.
    I understand that the current budget appropriation for CBP 
only provides funds for operation and maintenance of the ACS 
system and nothing for the development of ACE. This, in my 
judgment, is a shortsighted approach that will not only foster 
the continuation of costly and burdensome systems, but will 
further delay the goal of creating a single modern system to 
facilitate trade and enhance CBP's enforcement mission. It is 
understandable why additional funding for ACE development was 
not appropriated in light of the many millions of dollars 
already expended over this program over the many years and so 
little tangible to show for it. But again, I think an 
historical perspective might help here.
    During my term as Commissioner, I worked very hard but 
unsuccessfully over my entire 4 years to convince the Congress 
to fund ACE development. At that time, we were convinced having 
built ACS the predecessor system, on our own, that we were 
capable of building the next generation of automation as well.
    The clear message I received, however, was the only way 
Congress would ultimately approve ACE funding would be if 
Customs brought in outside experts to do the job. Several years 
after my departure, that is exactly what happened and the IBM 
team was awarded the contract to build ACE.
    Unfortunately, the program was then viewed as a contracted 
IT effort rather than a CBP initiative, and the result of that 
was CBP's key operational leaders were not engaged to the 
extent that they should have been. Consequently, operational 
requirements were not well defined, and the process bogged down 
with a lot of wasted effort and well-deserved criticism from 
many sources.
    Another factor leading to the scheduling delays and higher 
costs for the program was in the aftermath of 9/11, CBP 
completely redirected much of its programming efforts and 
understandably, so from facilitation to border security, 
changing the game sort of midstream. The problem has now been 
addressed by CBP in my judgment, and I think this committee has 
appropriately commended Commissioner Aguilar for the efforts 
that had been taking place. They have now created the ACE 
business office, which actively and effectively involves key 
stakeholders at every level.
    Chairman BRADY. Commissioner, if I may, because we have 
exceeded the time limit, perhaps we can ask you some questions 
on the follow-up with your permission. Thank you again for 
being here today. Welcome back.
    [The prepared statement of Mr. Weise follows:]

    [GRAPHIC] [TIFF OMITTED] T0260A.047
    
    [GRAPHIC] [TIFF OMITTED] T0260A.048
    
    [GRAPHIC] [TIFF OMITTED] T0260A.049
    
    [GRAPHIC] [TIFF OMITTED] T0260A.050
    
    [GRAPHIC] [TIFF OMITTED] T0260A.051
    

                                 <F-dash>

    Chairman BRADY. Mr. Sekin.

    STATEMENT OF DARRELL SEKIN, JR., PRESIDENT AND CEO, DJS 
INTERNATIONAL SERVICES, AND PRESIDENT, NATIONAL CUSTOMS BROKERS 
          AND FORWARDERS ASSOCIATION OF AMERICA, INC.

    Mr. SEKIN. Good morning, Chairman Brady and Ranking Member 
McDermott. I am Darrell Sekin, Jr., President of the National 
Customs Brokers and Forwarders Association of America and also 
the President of DJS International Services, a small family-
owned customs brokerage and freight forwarding firm located in 
Colleyville, Texas.
    Since my start as a Customs broker in 1975, the industry 
has undergone an enormous change, particularly in the area of 
automation. Customs automation is a powerful tool facilitating 
smooth trade flows and sharpening enforcement of trade laws.
    Customs automation is the communications channel between 
the importers and CBP. Customs brokers are instrumental to this 
process: information, data and transmitting the information 
necessary for the agency to function. That is why my first 
point to the committee needs to be about the importance of ACE 
and to underscore the comments of Mr. Weise.
    The funding requests from the administration is inadequate, 
and the pending House Appropriation Bill guarantees nothing for 
ACE development. Currently ACE functionality is the bridge that 
only goes halfway over the river, practically speaking, it 
cannot process entries, its core responsibility until release 
is finished. Release is in the on-deck circle, and without 
funding for it, the system promises little incentive for 
Customs brokers who file 97 percent of the entries to 
participate.
    My second point addresses the role of the broker. At one 
point during my career, Customs regulated each and every aspect 
of a Customs broker's business. In the mid 1980s, Customs 
agreed to separate the commercial and proprietary aspects of 
Customs brokerage from what has come to be known as Customs 
business. The latter signified recognition that we are an 
extension of Customs and that there must be intensive oversight 
and supervision of Customs-related activities.
    We are therefore licensed by Customs and subject to costly 
penalties for errors and omissions in conducting Customs' 
business. In short, the exchange for the privilege of engaging 
in Customs brokerage and to ensure the integrity of the entry 
process, we are committed to meeting Customs' exacting 
standards and rigorous regulation. This is Customs and the 
Customs' brokers grand bargain.
    Customs is now seeking to expand the role of the broker. A 
customs broker is viewed as a force multiplier because one 
customs broker reaches, educates, and acts for a multitude of 
importers, whether they be small, medium, or large-sized 
businesses. There are many ways that customs brokers can 
collaborate with Customs, such as education and certification. 
To enhance the professionalism of the customs broker, our 
national association developed a broker certification program 
that requires a rigorous course of study and examination, and 
also includes a continuing education requirement.
    We have begun in partnership with Customs a series of 
educational seminars for Customs officials.
    NCBFAA is presently engaging with Customs in an effort to 
update the Customs regulations that apply to customs brokers.
    We must also generate support for new Customs programs and 
we are working closely with Customs on ACE and on the air cargo 
advanced screening pilot. We have also agreed to assist with 
incorporating customs brokers into the development of the New 
Centers of Excellence and Expertise. And finally, we must 
advocate for a series of high-priority Customs issues.
    NCBFAA recognizes that there are many challenges for 
Customs to accomplish its missions. We support a number of 
steps that will improve the commercial operations performance 
of the agency such as drawback modernization and simplification 
and a prospective system for anti-dumping and countervailing 
duties. We must encourage efforts to expedite and facilitate 
the trade function of other Federal regulatory agencies. One 
such means to that end is the International Trade Data System, 
a component of ACE that provides each participating agency a 
window on the importation process. We support the committee's 
efforts to gain continued adequate funding for ITDS.
    Mr. Chairman, NCBFAA greatly appreciates the opportunity to 
outline our views on Customs oversight and new policy 
development. We stand willing to support the committee and all 
of its work to accomplish these objectives.
    Chairman BRADY. Thank you very much, Mr. Sekin.
    [The prepared statement of Mr. Sekin follows:]

    [GRAPHIC] [TIFF OMITTED] T0260A.052
    
    [GRAPHIC] [TIFF OMITTED] T0260A.053
    
    [GRAPHIC] [TIFF OMITTED] T0260A.054
    
    [GRAPHIC] [TIFF OMITTED] T0260A.055
    
    [GRAPHIC] [TIFF OMITTED] T0260A.056
    
    [GRAPHIC] [TIFF OMITTED] T0260A.057
    
    [GRAPHIC] [TIFF OMITTED] T0260A.058
    

                                 <F-dash>

    Chairman BRADY. Mr. Mullen.

   STATEMENT OF MICHAEL MULLEN, EXECUTIVE DIRECTOR, EXPRESS 
                     ASSOCIATION OF AMERICA

    Mr. MULLEN. Mr. Chairman, Mr. Ranking Member, I very much 
appreciate the opportunity to testify today at the hearing and 
applaud the committee for taking the time to examine the 
critical issues around streamlining and modernizing the 
shipment clearance process at our Nation's entry ports.
    I am the head of a trade association that represents the 
major express package companies: DHL, FedEx, TNT and UPS. Since 
the trade committee last held a hearing on these issues 2 years 
ago, I think it is fair to say that considerable progress has 
been made. CBP has adopted an approach known as Co-Creation, 
which Commissioner Aguilar described, where the private sector 
is engaged from the outset in the development of new security 
and border clearance programs. Co-Creation was used 
successfully to develop the air cargo advanced screening and 
the simplified entry pilot projects, which are described in 
detail in my written testimony.
    The Centers of Excellence and Expertise have implemented 
the concept of account management for two industries, and CBP 
is planning to expand this approach to additional sectors. 
``The Border Agency Executive Council'' was created to 
reinvigorate the commitment of government agencies with border 
authorities to the international trade data system. And the 
European Union has become the sixth partner to sign a trusted 
partner mutual recognition agreement with the United States.
    Former CBP Commissioner Alan Bersin should be given credit 
for much of this progress, and current Commissioner David 
Aguilar is carrying forward these efforts with strong 
dedication.
    But despite these positive developments, a great deal 
remains to be done. A disappointing lack of progress can be 
seen in the following areas: ACE funding has been seriously 
reduced and is now only sufficient to maintain the current 
operational status. Critically needed new capabilities are not 
being developed.
    The ITDS goal of a single transmission of information from 
the trade and a single government release remains an 
unfulfilled vision. As the agencies continue to deploy 
standalone IT systems to meet their unique requirements, the 
progress toward the ITDS goals is actually receding. Despite 
strong appeals from the trade, the de minimis level for rapid 
clearance for low-value shipments has not been raised above 
$200 where it has remained for nearly 20 years. The Peterson 
Institute of International Economics has done a study that has 
shown significant savings to the private sector approaching 
$100 million a year, and some savings also to the public sector 
would result from raising this level.
    C-TPAT benefits have not been expanded, and tier 3 status 
continues to be limited to importers only, denying several 
highly-qualified members in the carrier and other trade 
communities the opportunity to hold this status. We are not 
seeing progress toward a unified trusted partnership program in 
the United States, and the trade community continues to be 
plagued by the need to comply with unique programs for 
different agencies. As the number of such programs is 
increasing, we are actually going backwards in this area also.
    In the best of all possible worlds, what should the border 
clearance process look like by the end of this decade? The 
government should look at the border as a business entity that 
needs to be managed and develop all of the capabilities needed 
to do so. With sufficient political will, I believe it is 
possible to create a border 20/20 environment over the next 8 
years with the following capabilities: Government information 
requirements will be met by a single transmission of the 
minimum data elements necessary, submitted as early as possible 
in the supply chain; no paper documents will be required as 
part of the clearance process; all government agencies will 
coordinate to issue a single release prior to the goods 
arriving at the port of entry; ACE will be fully operational 
and will be the only U.S. trade clearance system; Centers of 
Excellence and Expertise will exist for all major import 
categories; the government will have a single trusted trader 
program in which all agencies with border authorities 
participate with a single application and validation process; 
the U.S. de minimis level will be at least a thousand dollars 
and will be automatically adjusted for inflation without the 
need for additional regulatory or legislative action.
    To sum up, this concept of the 2020 border represents an 
ambitious proposal. The building blocks to create each of these 
capabilities are in place today, but realizing this vision 
requires a congressional oversight management process that 
transcends narrow jurisdictional concerns and treats the effort 
as a single project. Nothing less than the international 
competitiveness of U.S. industry and ultimately U.S. jobs are 
at stake.
    Thanks very much again, and I look forward to discussing 
these issues with you.
    Chairman BRADY. Thank you, Mr. Mullen.
    [The prepared statement of Mr. Mullen follows:]

    [GRAPHIC] [TIFF OMITTED] T0260A.059
    
    [GRAPHIC] [TIFF OMITTED] T0260A.060
    
    [GRAPHIC] [TIFF OMITTED] T0260A.061
    
    [GRAPHIC] [TIFF OMITTED] T0260A.062
    
    [GRAPHIC] [TIFF OMITTED] T0260A.063
    
    [GRAPHIC] [TIFF OMITTED] T0260A.064
    
    [GRAPHIC] [TIFF OMITTED] T0260A.065
    
    [GRAPHIC] [TIFF OMITTED] T0260A.066
    

                                 <F-dash>

    Chairman BRADY. Mr. Williams.

STATEMENT OF JOHN WILLIAMS, EXECUTIVE DIRECTOR, SOUTHERN SHRIMP 
                            ALLIANCE

    Mr. WILLIAMS. Mr. Chairman, Members of the Subcommittee, 
thank you for inviting me to this hearing. I am John Williams, 
the executive director of the Southern Shrimp Alliance, and a 
shrimper with over 40 years in the industry.
    I am here to talk about Customs enforcement, something that 
is not a typical area of the expertise for a shrimper but it 
has become a central part of my duties.
    Customs enforcement should not be the responsibility of a 
fisherman. There should not be blatant circumvention schemes 
where millions of pounds of shrimp pour into our market from a 
country that has no ability to produce that product. There 
should not be businesses publicly advertising their expertise 
at evading anti-dumping duties. Since 2005, the Southern Shrimp 
Alliance has identified a wide variety of schemes designed to 
evade anti-dumping duties. In that time, I have learned that 
our industry's experience is not unique. Nearly every trade 
remedy imposed has been undermined. Circumvention affects all 
of us.
    On shrimp imports alone, circumvention has resulted in 
hundreds of millions of dollars in uncollected duties. This 
means that dumped shrimp continues to be sold in our market at 
prices that limit what shrimpers receive for their catch.
    My experience working with Customs has been positive. One 
operation closed down dusted shrimp circumvention. Customs 
worked to establish that Cambodia, Indonesia, and Malaysia were 
transshipment points to evade both duties and the import alerts 
issued by the FDA. Customs has also closed fly-by-night shrimp 
importers simply by opening investigations into their 
activities.
    As much as the shrimp industry has benefited from these 
activities, there is also frustration. I am often frustrated 
with the glacial place of progress on addressing certain 
schemes that seem to be open and obvious. Customs officials, in 
turn, express frustration on the limits of their abilities to 
address circumvention. Our experience has convinced me that 
Customs needs assistance in improving its enforcement of trade 
remedies. I believe that given the right tools, Customs will do 
the job. For this reason, the Southern Shrimp Alliance 
enthusiastically supports H.R. 5078, the Preventing Recurring 
Trade Evasion and Circumvention Act, introduced by Congressman 
Boustany and Richmond last week.
    The PROTECT Act makes circumvention a priority trade issue 
that Customs must address. The toughest part of our early 
interactions with Customs was the lack of continuity with those 
officials responsible for enforcement. Reorganization agency 
just made it worse.
    The PROTECT Act simplifies this. If enacted, Customs would 
have a trade remedy law enforcement division with a director 
that reports to an assistant commissioner. Because high-level 
enforcement positions have sat vacant with Customs, some have 
questioned whether the agency considered the enforcement of 
trade remedies to be a priority.
    I know from my own experience that Customs takes 
enforcement seriously, but there is little public record to 
support that. Under current law, Customs provides very little 
accounting of these activities. Under the PROTECT Act, Customs 
is obligated to give a detailed accounting of its enforcement 
efforts in an annual report to Congress.
    The PROTECT Act also makes addressing circumvention a 
principal negotiating objective of the United States in trade 
agreement negotiations.
    Malaysia has become an obvious transshipment point for all 
kinds of products evading anti-dumping duties. From our work 
with Customs, I understand that the Malaysian government has 
refused to cooperate with investigations. At the same time, we 
are negotiating with Malaysia to join the transpacific 
partnership. Circumvention must be addressed in these 
negotiations.
    The PROTECT Act also instructs Customs to seek to negotiate 
and enter into bilateral agreements to circumvention. Like with 
trade remedy enforcement, if Customs declines to use this 
authority, the agency must explain inaction to Congress on an 
annual basis. The PROTECT Act substantially increases Customs 
capacity to address circumvention by removing restrictions on 
the information available for use in commercial targeting. The 
Act also encourages enforcement by authorizing the sharing of 
confidential information between various Federal agencies. The 
PROTECT Act also improves Customs' capabilities by enhancing 
its ability to collect information and authorizing Customs to 
make adverse inferences against noncooperating parties. This 
bill also prevents the abuse of the new shipper review process 
and promotes better application of single entry and continuous 
bonds to ensure duty collection.
    In closing, I believe that these are vital steps forward, 
and I am deeply appreciative of the fact that Congress has 
taken these problems seriously as evidenced by this hearing 
today and Legislative proposal the PROTECT Act. By introducing 
the PROTECT Act, Congressman Boustany and Richmond have given 
me some hope that in the future, Customs enforcement may not be 
a part of my job.
    Thank you, and I look forward to any questions you have.
    Mr. BRADY. Thank you, Mr. Williams.
    [The prepared statement of Mr. Williams follows:]

    [GRAPHIC] [TIFF OMITTED] T0260A.067
    
    [GRAPHIC] [TIFF OMITTED] T0260A.068
    
    [GRAPHIC] [TIFF OMITTED] T0260A.069
    
    [GRAPHIC] [TIFF OMITTED] T0260A.070
    
    [GRAPHIC] [TIFF OMITTED] T0260A.071
    
    [GRAPHIC] [TIFF OMITTED] T0260A.072
    
    [GRAPHIC] [TIFF OMITTED] T0260A.073
    
    [GRAPHIC] [TIFF OMITTED] T0260A.074
    
    [GRAPHIC] [TIFF OMITTED] T0260A.075
    
    [GRAPHIC] [TIFF OMITTED] T0260A.076
    

                                 <F-dash>

    Chairman BRADY. Mr. Glassman.

STATEMENT OF KARL GLASSMAN, CHIEF OPERATING OFFICER, LEGGETT & 
                      PLATT, INCORPORATED.

    Mr. GLASSMAN. Good morning, Chairman Brady, Ranking Member 
McDermott, and members of this committee. Thank you for holding 
this hearing on topics that are critical to our business, 
employees, economy, and trade laws. I am the Chief Operating 
Officer of Leggett & Platt, a global manufacturer based in 
Missouri. We have 18,000 employees in 18 countries and 28 
States and make a wide variety of products.
    For the last 3 years, we, along with many of you, have been 
focused on duty evasion. Clearly, there is work to be done to 
create an effective enforcement program that ensures aggressive 
and timely action.
    Duty evasion has directly affected my company. Since 1883, 
we have manufactured mattress innersprings. While we now make 
many products, we are the world's largest innerspring producer, 
and they are the heart of our business.
    Chinese innersprings first entered the U.S. in the early 
2000s, at prices lower than our cost of production. We 
manufacture innersprings in China for the Asian market and know 
it is not cost effective to produce and ship innersprings from 
there to here. Still increasing volumes of Chinese innersprings 
continued to be imported at very low prices.
    In late 2007, after significant injury to our U.S. 
operations from the low-priced springs, we filed successful 
trade cases against China, South Africa, and Vietnam. Since 
February of 2009, Chinese innersprings have been subject to 
anti-dumping duties from 164 to 234 percent. Even before the 
final anti-dumping order was issued, Chinese innersprings began 
being transshipped to evade duties. Prior to July 2008, there 
were no innersprings shipped from Hong Kong, yet by September 
of that year, over 35 containers per month, worth $1.5 million 
in sales and more in duties, were being shipped here at the 
same dumped Chinese prices. This made no sense to us so we 
hired a private investigator who found no evidence of 
legitimate production in Hong Kong.
    We traced 13 shipments of innersprings from China to Hong 
Kong and then from Hong Kong to the U.S. in just 2 months. We 
estimate 1 million innersprings illegally evade the anti-
dumping order each year. This represents over $50 million in 
uncollected duties. If those innersprings were produced in the 
U.S., it would account for over 58 full-time jobs earning more 
than $2.4 million in wages and benefits per year.
    We regularly provide Customs with specific evidence of 
evasion. Since October of 2008, we have met with or sent 
information to Customs on 30 occasions. Despite these regular 
communications, including with the RED team, we have no 
indication of any enforcement activity in our industry. This is 
a systemic problem. We and 13 other affected industries, 
collectively employing tens of thousands of American workers 
formed the Coalition to Enforce Anti-Dumping and Countervailing 
Duty Orders. Our stories are strikingly similar: the same 
invasion schemes, lack of meaningful enforcement, and an 
ongoing commitment of company resources to attempt to enforce 
our own orders.
    The consequences of duty evasion are significant. We 
estimate that Treasury loses over a billion dollars in unpaid 
duties each year with $400 million just from the seven of the 
Coalition's industries.
    The ripple effects of duty evasion up and down supply 
chains, on our workers' salaries, and on our Communities cannot 
be ignored. Coalition members have met with Customs, ICE, 
Commerce, USTR, Treasury, this committee's staff, Senate 
Finance staff, and several Members of Congress and their staff 
concerning these issues. We are encouraged by the efforts of 
many members to help find a solution.
    Any legislation or policy changes must include meaningful 
provisions capturing three core themes: First, prompt action. 
Evasion must be addressed quickly. These are industries and 
employees that our government has said are injured and who need 
and deserve the benefit of their anti-dumping order.
    Second, full use of existing tools. Our agencies should use 
all available tools and authority, including requests for 
information, audits, civil penalty proceedings and expertise of 
affected industries.
    Third, publicized results. Publishing regular decisions and 
reports with meaningful details, and informing the industries 
reporting evasion, would provide an immediate deterrent to 
cheaters, increase transparency and accountability and 
demonstrate the agency's will and capabilities to combat 
evasion.
    Codifying practices that are less than fully effective is 
not enough. Our enforcement agencies need structured programs 
with appropriate levels of responsiveness, transparency, and 
accountability. We must find a solution. The alternative is 
unacceptable. We are committed to helping come up with 
solutions that go beyond business as usual and deliver an 
effective enforcement program.
    Mr. Chairman, members of this subcommittee, thank you for 
the opportunity to address you today. I look forward to your 
questions.
    Chairman BRADY. Mr. Glassman, thank you for bringing 
forward the issue of trade fraud. It has been prevalent for 
some time, getting more complex. It is a major challenge for us 
moving forward so thank you for focusing on that.
    [The prepared statement of Mr. Glassman follows:]

    [GRAPHIC] [TIFF OMITTED] T0260A.077
    
    [GRAPHIC] [TIFF OMITTED] T0260A.078
    
    [GRAPHIC] [TIFF OMITTED] T0260A.079
    
    [GRAPHIC] [TIFF OMITTED] T0260A.080
    
    [GRAPHIC] [TIFF OMITTED] T0260A.081
    
    [GRAPHIC] [TIFF OMITTED] T0260A.082
    

                                 <F-dash>

    Chairman BRADY. Mr. Williams, my congressional district 
abuts Dr. Boustany. We have got a few shrimpers around Texas as 
well. Very interested in your testimony.
    I want to welcome Mr. Weise back to the committee and thank 
you for your expertise. You heard me perhaps in the first panel 
talk about the need for measurements. In fact, United States is 
ranked ninth in efficiency by one measurement, lower than that, 
Customs' efficiency 13th in the world, international shipments, 
17th. Whether that comparison's accurate or not, the point is 
that we have become much more efficient, and to do that you 
have to measure the efficiency and the accuracy and the 
enforcement.
    So I wanted to ask Mr. Sekin and Mr. Mullen and to ask any 
of you to chime in if you wish, how are your customers 
measuring efficiency of shipping, Mr. Sekin, and how are your 
members, Mr. Mullen, doing the same? What do you use to measure 
efficiency, time, cost, for both imports and exports?
    Mr. SEKIN. I think one of the ways that our client's 
measure efficiency is how quickly their shipments are 
processed, how many examinations they get and when, shipments 
are detained for examination, how long does that detention 
last? There is a great deal of expense when a shipment is 
detained for examination at the seaport, such as demurrage 
charges or per diem charges on the container. It can be very 
expensive. So a customer would measure how quickly they get 
their product and can get it into the marketplace.
    Chairman BRADY. Would you be willing to survey your members 
to ask what some of those indicators might be with the broad 
range of them that might be that they would feel comfortable 
sharing with us as we go forward?
    Mr. SEKIN. We would. We will get back to you with that.
    Chairman BRADY. Thank you very much. Mr. Mullen?
    Mr. MULLEN. Mr. Chairman, this is a very important subject, 
and I would share what my colleague said about the importance 
of time for release, the time from when the product actually 
arrives at the port of entry to when it is ultimately released. 
If there is a hold imposed, what the time is required to 
resolve the hold, and I think a particularly meaningful 
measurement that could be developed is that several government 
agencies, it is hard to know exactly, but one number we use is 
that nine government agencies have border control authority, so 
in other words, have the authority to stop a product at the 
border for one reason or another. Most of those choose to 
discharge those responsibilities through CBP, but some do not. 
But for each one of those agencies, a statistic should be 
developed of all the products that are coming in that are under 
the regulatory control of that agency, let's choose FDA as an 
example.
    Of all the products FDA regulates, what percentage are 
stopped for some reason, an inspection or some other reason, 
are put on hold? And of that percentage that are put on hold, 
what percentage do they actually find that there is a violative 
product, a noncompliant product? So to improve trade 
efficiency, what you would want is that the number of overall 
products that are being held, that percentage keeps going down, 
and the number of violative products they find keeps going up. 
That would be a very good measurement.
    Chairman BRADY. I appreciate that. On the time for release, 
what is the trend? Is it getting shorter? Is it getting longer? 
Does it vary?
    Mr. MULLEN. I think overall it has gotten better for some 
agencies, but for some agencies it has gotten worse.
    Chairman BRADY. Can you survey your members as far as 
indicators they think would be meaningful as we move forward as 
well as to the comfort level they have in sharing with us?
    Mr. MULLEN. I certainly can.
    Chairman BRADY. Any other witnesses want to weigh in?
    Mr. WEISE. Just briefly, and I think you raised this with 
Commissioner Aguilar. I think Customs has come a long way in 
trying to measure the right things. I mean, back in my day, we 
used to try to measure the instances of noncompliance as 
opposed to measuring what total compliance should be. Once we 
got to that point and we were able to demonstrate that we could 
show marked improvement to get the compliance levels up to was 
roughly 90 percent and the duty gap was only 1 percent. So we 
were collecting 99 percent of what we should be collecting in 
reviews, and we had 90 percent compliance level on most of our 
many importers. But it is important to have those measurements 
and metrics on both sides, both from an efficiency standpoint 
as well as an enforcement standpoint.
    Chairman BRADY. And our challenge, too, on enforcement is 
that we often measure progress by bulks, by volume versus what 
percentage you are actually stopping, you know, at the border 
accurately, and it is hard to be noble about what that bulk of 
fraudulent shipments is, so that presents a particular 
challenge. Yes, sir, Mr. Williams?
    Mr. WILLIAMS. Yes, I think if we are going to measure, have 
any kind of measurement in our industry, you know, we are quite 
a bit different from other folks here, I think it would be our 
price. You know, that would determine, help determine the 
amount of circumvention that is going on in our industry, and 
that would be certainly a measurement by our price how much it 
goes up and down.
    Chairman BRADY. Good point. Thank you, sir. I will turn the 
questioning over to Mr. McDermott.
    Mr. McDERMOTT. Thank you, Mr. Chairman. As I listen to Mr. 
Williams and Mr. Glassman, I try to figure out in my mind what 
can we up here do to make it better? I mean, what kind of rules 
and regulations should we write for Customs or is it a lack of 
personnel? And I get a different view from Mr. Glassman and Mr. 
Williams about how effective the agency is. Can you tell--I 
mean, one is dealing with fish and another is dealing with high 
tech stuff and whatever. Is it the sector you are into that 
Customs is better at than they are in another sector? Or is it 
the region you come from? Or is it something else? Why do I get 
these different views from the two of you?
    Mr. GLASSMAN. Mr. Congressman, I would speculate that the 
fact that the FDA is involved in the food aspect of Mr. 
Williams' product may be one of the points of difference. I can 
only benchmark ourselves against the 13 other industries in our 
coalition, and they have twin experiences to ours, constantly 
giving CBP information and it going into that proverbial black 
hole and no follow-up. I don't think that there is any need for 
additional tools. We don't think that there is need for 
additional expenditure on resources. What we are asking for is 
to use the tools that are available to the agency today to 
enforce timelines so there is accountability.
    I certainly subscribe to Chairman Brady's position on 
measurement. The very basic theory of continuous improvement is 
to effect development or improvement, you have to have a 
measurement system. Timelines are a measurement system. So we 
need to invoke that into the process.
    Mr. McDERMOTT. If I understand you, then, what you are 
saying is we don't need more people, we don't need more money. 
What we need is enforcement of what is going on by using some 
kind of timeline that it has to be done within 2 weeks or 3 
weeks or whatever it is.
    Mr. GLASSMAN. And they also, sir, can leverage the 
information that is given to them. I will give you a specific 
example. In a meeting with CBP staff a year or so ago, they 
said do us a favor and present to us a list of the top 10 
importers of record, and then correlate that very tightly with 
the recipients of those goods that you believe are, in fact, 
circumventing. We did that very thing. Two weeks ago we were 
asked for that same information. That is information that is 
available to CBP and isn't utilized. We have full-time 
employees purveying databases to try to get information that 
goes into that black hole. Really what we are asking for is 
time and attention and enforcement of our trade laws.
    Mr. McDERMOTT. So explain to me, then, what you think is 
not going on. I mean, they have the data, you presented it to 
them, but nothing happened. Is that just sloth or is that they 
are overworked or it is not complete data or they don't know, 
or is there some other reason why it doesn't get dealt with? 
Because it seems like it is all there on the table for anybody 
who would look. Then the next thing is why didn't they take the 
action? How do you explain it to yourself?
    Mr. GLASSMAN. I admit it is frustrating. I believe it is a 
lack of focus and accountability. One of the real benefits of 
the PROTECT Act, as Mr. Williams delineated, is there is an 
expectation of accountability and focus on circumvention. The 
fact that circumvention isn't something in enforcement, isn't 
something that gets a lot of visibility is a question to us. We 
are as baffled as you are, sir.
    Mr. McDERMOTT. Is it that there are better teeth in the 
PROTECT Act or more teeth or----
    Mr. GLASSMAN. The fact that there is a systematic approach, 
the fact that we are using the 10 plus 2 information for 
commercial uses is a benefit. The weakness that we believe in 
the particular proposed Act, though, is the accountability or 
the tools of measurement, the timelines, the transparency. 
Those are the things that we think can help augment the PROTECT 
Act to end up with a better end product.
    Mr. McDERMOTT. So you are talking about additions to Mr. 
Boustany's proposal in terms of tightening of the teeth?
    Mr. GLASSMAN. It would potentially be a merging of the 
PROTECT Act and the ENFORCE Act that Congressman Neal made 
reference to earlier today.
    Mr. McDERMOTT. So a marrying of the two?
    Mr. GLASSMAN. That is correct, sir.
    Mr. McDERMOTT. Okay. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman BRADY. No, thank you, Mr. McDermott. Mr. Davis.
    Mr. DAVIS. Thank you, Mr. Chairman.
    Mr. Mullen, I have heard from some in the trade community 
that agency holds from agencies such as FDA, USDA, and DEA can 
delay shipments several days longer than the CBP holds. To your 
knowledge, have members of your association experienced 
difficulties with paperwork requirements or any other 
requirements from agencies other than the Customs and Border 
Patrol, and in your view, what can be done to improve the 
multi-agency processes and how can Congress streamline 
legitimate trade processing?
    Mr. MULLEN. Well, thank you, Mr. Davis. It is a serious 
problem, and I think the comment was made during the first 
panel that on a percentage basis more holds come from other 
agencies now than those that are imposed by CBP for security 
problems. And I think several things actually could be done to 
help alleviate this problem. The first thing is that a number 
of other agencies of the Federal Government don't see trade 
facilitation as being part of their mission, and they are 
enforcing a regulatory process that is based on a desire to 
identify product safety and other problems that is critically 
important, and that part of their mission is critical to the 
health and safety of the American people, but they need to 
understand that they have become partners in a supply chain at 
this point, and they need to look at what they can do to 
provide more trade facilitation for legitimate shippers.
    So there are a couple of efforts underway right now to 
really expand the basic C-TPAT model and create trusted trader 
programs that would incorporate other agencies, and the 
Certified Importer Project is the most important, I would say, 
of those efforts right now, where if a company can validate its 
supply chain from one end to the other, it shows that it has 
good manufacturing processes, a secure supply chain, those 
products should receive expedited treatment when they arrive at 
our border.
    A second thing that could be done is many of the holds that 
other agencies put on products are because of document 
requirements or for some small inaccuracy in the information 
that was submitted electronically. Those kinds of problems, 
where it is a highly--otherwise a highly compliant importer 
shouldn't hold up the release of the product. Let the product 
go, and the document can be provided or that little inaccuracy 
in the submission of the information can be corrected after the 
product has already been released. There are all kinds of ways 
to audit this process to make sure that what the government 
requires is actually provided.
    And then the third thing I would say is some of these other 
agencies could do a better job if they centralized some of 
their resources. If it is just a question of examining 
documents, which often are available electronically, if trying 
to do that--instead of trying to do that at every port of entry 
where their products are coming in, it is a virtual process, 
centralize those resources in a place where the right expertise 
would be available, and it might be available for a longer 
period than 8 hours a day.
    Mr. DAVIS. Do you think it would be more effective to have 
a common data warehouse that all the agencies could draw from? 
A shipper, in effect, signs on to what would be the equivalent 
what we call in the private sector is part of a customer master 
and then the different agencies can flag the information that 
is relevant to them, but it is all transparent to speed, to 
expedite the process through. In fact, not unlike making a 
credit card transaction. If there is something that comes up, 
it flags automatically by whatever network is observing that 
and then action can be taken appropriately. Would that fit the 
model that you are talking about?
    Mr. MULLEN. Something like that would, I think, be 
excellent if you are talking about consolidating the 
information.
    Mr. DAVIS. I think if you just have to fill out a form one 
time--I mean, we see it in the entitlement programs all the 
time, one error ripples across agency after agency and just 
creates a tremendous backlog.
    Mr. Weise, as the committee continues to evaluate ways to 
improve trade processing and benefits to trusted traders, what 
other trade streamlining measures should we consider as a Trade 
Subcommittee? In fact, in your view how effective has the CBP 
been at consulting and working with other agencies and what, if 
anything, can Congress do to facilitate CBP's collaboration 
with other agencies and the private sector?
    Mr. WEISE. As I said in my statement, I think Customs is 
doing much better than they have in the past in recent years, 
that is CBP. The creation of CBP, obviously in the aftermath of 
9/11, their focus was pretty much security, security, security, 
and the concern was we might have a physical container with 
explosives, et cetera. So rightfully so. But they are doing a 
much better job. They have a number of outreach programs, they 
are reaching out to try to partner with the business community, 
but there is much more that can be done.
    And I think, again, when you look at resources, the issue 
we were just talking about in terms of your centralized data, 
that is the International Trade Data System we tried to do back 
when I was Commissioner in the 1990s. The import community is 
being asked to do a lot in terms of doing C-TPAT, putting in 
systems that will make sure that their supply chain is secure. 
What they are asking from the government is don't be 
duplicative about the data you are asking for. You are asking 
for so much from so many sources. If you want us to do all this 
to help secure the supply chain, help us out by asking for data 
one time, it can be shared across all agencies, and then to Mr. 
Mullen's point, all of the information that different agencies 
require aren't critical for the release process. They may be 
critical at some point before these products enter consumption, 
but are not critical release.
    Mr. DAVIS. Do you see the shippers actually being, or CBP 
actually sitting down with the shippers, business process 
managers, their systems people to actually see the--you know, 
the level of granularity I think in many of the shippers is 
much more sophisticated than what the Federal Government 
actually uses, and I think a partnership could accomplish both 
ends very easily to speed that but also accomplish the same 
end.
    Mr. WEISE. Exactly. My point that I made in my testimony as 
well, it is more complicated. There is no unified voice 
anymore, even from a congressional perspective. You have the 
Ways and Means Committee and the Senate Finance Committee, 
having a particular focus on what CBP should be looking at and 
you have the Homeland Security Committees that may have a 
different perspective, so CBP is getting mixed signals.
    To me one of the things that is lacking that I said in my 
submission is that we need to find a way to have communication 
consistent across the business community, CBP, and the Congress 
to make sure that there is a clear direction that is being 
provided and that people are being held accountable in CBP in 
carrying out those policies. I think that is what has been 
difficult because of all the complexity of this very much 
larger organization with all these different committees. There 
is not a unified message that is being received that needs to 
be carried out.
    Mr. DAVIS. Great. Thank you very much. Yield back, Mr. 
Chairman.
    Chairman BRADY. Thank you. I think this hearing has been a 
good bipartisan opportunity to focus on the nuts and bolts of 
trade, making sure that Customs has the resources, the 
authority, and the focus on its trade enforcement missions as 
well as streamlining legitimate trade. Work of Customs is key 
in determining our competitiveness in the 21st century, and I 
very much thank the witnesses for their time and their patience 
and their very thoughtful testimony. Our record is open until 
May 31, 2012. I urge interested parties to submit statements to 
inform our Customs authorization legislation, included as I 
requested on the measurements, the indicators that we might 
consider on making sure we are actually measuring the progress.
    With that, thank you. This hearing is adjourned.
    [Whereupon, at 12:21 p.m., the subcommittee was adjourned.]
    [Submissions for the Record follow:]

 Statement of Senators Ron Wyden, Olympia Snowe, Claire McCaskill, and 
                               Roy Blunt

[GRAPHIC] [TIFF OMITTED] T0260A.083

[GRAPHIC] [TIFF OMITTED] T0260A.084

[GRAPHIC] [TIFF OMITTED] T0260A.085





                                 <F-dash>

                           Statement of AAFA

[GRAPHIC] [TIFF OMITTED] T0260A.086

[GRAPHIC] [TIFF OMITTED] T0260A.087

[GRAPHIC] [TIFF OMITTED] T0260A.088

[GRAPHIC] [TIFF OMITTED] T0260A.089

[GRAPHIC] [TIFF OMITTED] T0260A.090

[GRAPHIC] [TIFF OMITTED] T0260A.091

[GRAPHIC] [TIFF OMITTED] T0260A.092

[GRAPHIC] [TIFF OMITTED] T0260A.093

[GRAPHIC] [TIFF OMITTED] T0260A.094

[GRAPHIC] [TIFF OMITTED] T0260A.095


                                 <F-dash>

                           Statement of AAEI

[GRAPHIC] [TIFF OMITTED] T0260A.096

[GRAPHIC] [TIFF OMITTED] T0260A.097

[GRAPHIC] [TIFF OMITTED] T0260A.098

[GRAPHIC] [TIFF OMITTED] T0260A.099


                                 <F-dash>

                           Statement of RILA

[GRAPHIC] [TIFF OMITTED] T0260A.100

[GRAPHIC] [TIFF OMITTED] T0260A.101

[GRAPHIC] [TIFF OMITTED] T0260A.102

[GRAPHIC] [TIFF OMITTED] T0260A.103


                                 <F-dash>

                           Statement of NTEU

[GRAPHIC] [TIFF OMITTED] T0260A.104

[GRAPHIC] [TIFF OMITTED] T0260A.105

[GRAPHIC] [TIFF OMITTED] T0260A.106

[GRAPHIC] [TIFF OMITTED] T0260A.107

[GRAPHIC] [TIFF OMITTED] T0260A.108

[GRAPHIC] [TIFF OMITTED] T0260A.109

[GRAPHIC] [TIFF OMITTED] T0260A.110

[GRAPHIC] [TIFF OMITTED] T0260A.111

[GRAPHIC] [TIFF OMITTED] T0260A.112

[GRAPHIC] [TIFF OMITTED] T0260A.113




                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
